<html>
<title> - ASSURING PUBLIC ALERT SYSTEMS WORK TO WARN AMERICAN CITIZENS OF NATURAL AND TERRORIST DISASTERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
          ASSURING PUBLIC ALERT SYSTEMS WORK TO WARN AMERICAN
                          CITIZENS OF NATURAL
                        AND TERRORIST DISASTERS

=======================================================================


                               (110-132)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
42-774                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)



 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Fowlkes, Lisa, Deputy Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission......................    14
Gispert, Larry, President, International Association of Emergency 
  Managers, and Director, Department of Emergency Management, 
  Hillsborough County, Florida...................................    32
Guttman-Mccabe, Christopher, Vice President, Regulatory Affairs, 
  CTIA, the Wireless Association.................................    32
Judkins, Jr., James T., Emergency Management Coordinator, Suffolk 
  Department of Fire and Rescue, Division of Emergency Management     6
Rainville, Major General Martha T., Assistant Administrator, 
  National Continuity Program Directorate, Federal Emergency 
  Management Agency..............................................    14
Womack, Michael, Region IV Vice President and Member of the Board 
  of Directors, National Emergency Managers Association, and 
  Director, Mississippi State Emergency Management Agency........    32

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    46
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    47
Oberstar, Hon. James L., of Minnesota............................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Gispert, Larry...................................................    54
Guttman, McCabe, Christopher.....................................    58
Judkins, Jr., Captain James T....................................    67
Poarch, Derek K..................................................    70
Rainville, Martha T..............................................    78
Womack, Mike.....................................................    91

                       SUBMISSIONS FOR THE RECORD

Fowlkes, Lisa, Deputy Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission, responses to 
  questions from the Subcommittee................................    75
Rainville, Major General Martha T., Assistant Administrator, 
  National Continuity Program Directorate, Federal Emergency 
  Management Agency, responses to questions from the Subcommittee    87

[GRAPHIC] [TIFF OMITTED] 42774.001

[GRAPHIC] [TIFF OMITTED] 42774.002

[GRAPHIC] [TIFF OMITTED] 42774.003

[GRAPHIC] [TIFF OMITTED] 42774.004

[GRAPHIC] [TIFF OMITTED] 42774.005

[GRAPHIC] [TIFF OMITTED] 42774.006

[GRAPHIC] [TIFF OMITTED] 42774.007

[GRAPHIC] [TIFF OMITTED] 42774.008



ASSURING PUBLIC ALERT SYSTEMS WORK TO WARN AMERICAN CITIZENS OF NATURAL 
                        AND TERRORIST DISASTERS

                              ----------                              


                        Wednesday, June 4, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good morning.
    This is an important hearing. Almost every American is 
familiar with this scenario: You are watching television, and 
suddenly the television program is interrupted; a beeping sound 
comes. You see the multicolored stripes across the screen, and 
then you hear, "This is a test of the Emergency Alert System," 
the EAS. You breathe a sigh of relief because it is only a 
test.
    But during any given year, thousands of citizens across our 
country hear an emergency broadcast on their radios or on 
television advising them that they have a few minutes to seek 
appropriate shelter because, for example, a tornado is coming 
or to evacuate the area because a hurricane is arriving in a 
few hours.
    The Federal Emergency Management Agency, or FEMA, is 
responsible for administering the national EAS with assistance 
from the Federal Communications Commission for ensuring 
compliance with regulations. Broadcast radio and television 
stations and satellite radio operators are required to 
participate in a national-level EAS alert. And State and local 
governments may use the EAS on an as-available basis. Broadcast 
station participation is voluntary, but of course most do.
    Given the high number of natural disasters in our country 
each and every year, probably 90 percent of all messages and 
100 percent of all Federal messages are disseminated by the 
EAS, as generated by the National Oceanic Atmospheric 
Administration's Weather Radio All Hazards--NWR, as we call 
it--and the National Weather Service.
    Two years ago, President Bush issued Executive Order 13407, 
directing the Department of Homeland Security to modernize and 
integrate the Nation's public warning systems. FEMA then 
created the Integrated Public Alert and Warning Systems, which 
we call IPAWS, and is working with the public and private 
sectors to integrate warning systems so that authorized 
officials can effectively warn the public through an upgraded 
version of the EAS system.
    EAS messages will continue to be transmitted but, in 
addition, must today include the modern technology conveniences 
that almost every American owns, including pagers, cell phones, 
computers and other personal communication devices. This is a 
big task.
    FEMA began working on a plan to update the EAS system in 
part by conducting pilot programs nationwide. With IPAWS pilot 
projects coming to an end, however, many stakeholders are 
expressing frustration that the IPAWS program does not have a 
clear plan and timeline for finishing the various tasks that 
still need to be completed. Several States and localities have 
begun modernizing their own systems in the absence of Federal 
guidance and consensus.
    Stakeholders include State and local governments and 
various private-sector groups. The Government Accountability 
Office has suggested that FEMA hold some stakeholder forums on 
the challenges of integrating the system and various other 
issues. At the meetings, the stakeholders perhaps could produce 
some clearly defined deliverables, such as, for example, the 
Common Alerting Protocol, or CAP, a standardized format for use 
in all types of message alerts.
    The public also is entitled to a clear timetable as to when 
a final decision or action will be completed. Many stakeholders 
point to the Commercial Mobile Service Alert Advisory 
Committee, a process set out in the Warning Alert and Response 
Network Act--we call it the WARN Act--which has been signed 
into law as the Security and Accountability for Every Port Act 
of 2006.
    CMSAAC members, we will call them, include Federal, State, 
local and tribal governments, members of the private sector, 
and people with disabilities. They are charged with providing 
recommendations on technical requirements, standards, 
regulations and other matters needed to support the transmittal 
of emergency alerts by commercial mobile providers to their 
subscribers on a voluntary basis. They meet deadlines, make 
decisions and produce reports. The advisory committee has 
already produced results.
    We are pleased that, after some reluctance and delay, FEMA 
announced on May 30, 2008, that once the system is in place, 
that agency will serve as the Federal aggregator and gateway 
for the nationwide Commercial Mobile Alert System. I appreciate 
the meetings between FEMA's staff and the Committee staff 
regarding their expansive legislative authority for public 
alerts and warnings in the Stafford Act.
    We must remember that we are modernizing and integrating 
the public alerts and warning systems that can make the 
difference between living and dying for the Nation's citizens. 
When a parent hears an alert on the radio and has a few minutes 
to get her children into a cellar before a tornado strikes, we 
are reminded that this alert and warning system must be robust, 
more readily available, and truly modern. This Subcommittee is 
committed to assisting FEMA in making the public alert and 
warning system much better and, indeed, the best. No less will 
do.
    I am pleased to welcome all of the witnesses today and look 
forward to their testimony.
    And I would ask the Ranking Member if he has an opening 
statement.
    Mr. Graves. Thank you, Madam Chair, for holding this 
hearing on the state of our public alert and warning systems.
    I also want to thank all of our witnesses for being here 
today and for their efforts to improve our alert and warning 
capabilities. I know that they have the best interest of the 
American people at heart, and I very much appreciate your 
service.
    Quite frankly, I think this is one of the most important 
hearings we have held in Congress, Madam Chair. Far too many 
people are dying in disasters that could have been avoided with 
an effective warning system. In the first 5 months of this year 
alone, over 100 people were killed by tornadoes in the South, 
in the Midwest, and in my home State of Missouri. This is 
simply unacceptable.
    We live in a country with 250 million wireless subscribers, 
yet we rely on a Cold War-era alert system to warn people of 
life-and-death situations. Unless you live in a State that has 
decided to create its own modern alert system, you probably 
need to be sitting in front of a TV or listening to the radio 
to receive an emergency alert. Given our mobile lifestyle, this 
is not good enough. We need to modernize our aging systems so 
government officials can get the right message to the right 
people at the right time to save lives.
    There is no excuse for the lack of effective warning to the 
public. Technology already exists to integrate cable, 
satellite, digital and wireless capabilities into a system that 
allows local officials to geographically target life-saving 
warnings in less than a minute. However, there is no plan to 
use or integrate them.
    What we are missing is clear Federal leadership--not 
mandates, but leadership to drive a consensus among the 
stakeholders about the standards and protocols we will use to 
build this system. If FEMA fails to lead us to the next 
generation of alert systems, then I believe we will end up with 
a patchwork of State and local systems that can't communicate 
with each other.
    We are on the verge of repeating the same mistakes we made 
with radios, where neighboring jurisdictions and police and 
fire can't talk to one another. To avoid such a mess, I 
introduced the Integrated Public Alert and Warning System 
Modernization Act last month with Chairwoman Norton. Our bill 
will clarify leadership and accountability and require a 
roadmap for developing a modern alert system that reaches 
people quickly and effectively.
    So far there has been some effort to examine and improve 
portions of the current system. In June of 2006, the President 
issued an executive order directing the Department of Homeland 
Security to take the necessary steps to upgrade our alert 
system. As a result, the Federal Emergency Management Agency 
established the Integrated Public Alert and Warning System, 
also known as IPAWS.
    In October 2006, Congress enacted the Warning Alert and 
Response Network, or WARN, Act that directed the Federal 
Communications Commission, or the FCC, to establish an advisory 
committee, and FCC ordered to develop the commercial mobile 
services component of IPAWS. However, to date, FEMA has not 
provided clear leadership to develop the system architecture or 
a plan to tie the elements of an integrated system together.
    In fact, the recent controversy over FEMA's reassessment of 
its authorities and role as the Federal coordinator or 
aggregator of alerts has caused numerous stakeholders to 
question FEMA's commitment to the IPAWS effort. FEMA's decision 
last week to assume the Federal aggregator role is significant, 
and I am glad FEMA is back onboard. However, little progress 
will be made until FEMA adopts the Common Alert Protocol 
standards and a clear consensus plan to integrate all of the 
moving parts of IPAWS.
    There are also serious questions about the reliability of 
the existing relay system used to disseminate alerts. In 2007, 
FEMA conducted a nationwide Emergency Alert System test. Three 
of the primary entry-point stations designed to transmit the 
alert to other broadcast stations failed to receive and 
retransmit the alert.
    There are also unresolved questions about how State and 
local officials can and should use the future IPAWS system. We 
must keep in mind that 98 percent of all alerts are local and 
that IPAWS must meet their needs for fast and targeted alerts. 
Given the slow and confusing pace of IPAWS, some States and 
localities are moving forward with their own systems to meet 
the needs of their citizens. While I can't blame the States for 
moving ahead without FEMA, it increases the risk that local 
alert systems will not be compatible.
    In the end, we want to ensure that all Americans have the 
capability to receive alerts and warnings regarding disasters 
through as many modes of communication as possible. And that is 
the intent behind the bill that we have introduced.
    Again, I want to thank Chairwoman Norton and our witnesses 
today. Your testimony is going to help us identify the critical 
steps for achieving the IPAWS vision as quickly as possible.
    Thanks, Madam Chairman.
    Ms. Norton. Thank you, Mr. Graves.
    Mr. Carney, do you have an opening statement?
    Mr. Carney. Yes, I do.
    Good morning. I wanted to thank you for holding this 
hearing today, Madam Chair.
    As you are aware, I have committed myself during the 110th 
Congress to ensuring a proper state of readiness at FEMA, 
particularly in light of past tragedies that this Nation has 
suffered and because there are situations that we will 
undoubtedly face again in the future.
    The American people deserve the best and most efficient 
public alert system so that they will have the time, the 
direction and the resources to protect themselves and their 
families. Throughout our history, the American people have 
proven that they are capable of an amazing capacity to survive, 
endure and succeed any challenge, especially when they are 
given a fighting chance.
    Madam Chair, I am interested to hear the testimony of our 
witnesses today, particularly with respect to the IPAWS system 
and how it affects the present Emergency Alert System, EAS.
    Pennsylvania developed its own EAS plan and filed it with 
the FCC on April 1, 2004. And I am interested to learn from our 
witnesses here their thoughts on whether IPAWS will be 
concluded soon and the implications that it might have for 
States like Pennsylvania, States that have existing EAS plans.
    I believe that we dodged a bullet during the hurricane and 
severe storm season during 2006 and 2007, but this season's 
storms already in the plains have been much more severe, much 
more aggressive, and have led to an enormous also loss of life 
already. It is my desire that FEMA not find itself again 
overwhelmed, as it had been the last time the Nation faced 
devastating natural disasters.
    I look forward to the testimony of the witnesses. And I 
thank you for your time, Madam Chair.
    Ms. Norton. Thank you, Mr. Carney.
    We have been joined by the Ranking Member of the Full 
Committee. I am pleased to have Mr. Mica.
    Mr. Mica. Well, thank you. And I want to also thank you for 
holding this timely and important meeting on ensuring the 
public that our alert systems work to warn American citizens of 
natural and terrorist disasters.
    In the third panel I guess today, we have Larry Gispert, 
who is the emergency manager from Hillsborough County. That is 
not in my district but the State of Florida. I welcome him and 
look forward to his testimony before this Subcommittee today.
    I also want to congratulate our Ranking Member and Chair 
for their bill, H.R. 6038, which does require the Federal 
Government to upgrade the Nation's alert and warning system.
    Now, I don't know what it is going to take. I come from a 
district that has been hit by hurricanes, floods, fires, 
tornadoes. I think we have had everything but the locust. And 
heaven forbid we should have another Katrina or natural or 
terrorist disaster and not be able to warn the public 
adequately.
    We have the technology to achieve adequate warning for the 
public. Somehow we either lack the legislative will or the 
administrative ability to get the job done. And I am hoping 
that this hearing can move us toward the goal of replacing an 
Emergency Alert System that relies on 1950s broadcast 
technology and only works if you have a radio turned on. That 
is a pretty pitiful statement, that we don't have better system 
in place.
    The tornadoes that we had in central Florida back in 2007 
killed several dozen folks. It struck at 3 o'clock in the 
morning, and we did not have an adequate warning system. And we 
have seen also the inadequacies of some systems, particularly 
in the rural areas or areas where there are longer distances, 
and some of the traditional types of warning systems just do 
not work.
    But, as I said, we do have the technology. People have cell 
phones. We have the ability to turn on and off electronic 
equipment and to provide timely warning for people to avoid 
loss of life and be prepared to deal with a disaster.
    So I look forward to the testimony today. I look forward to 
working with Ms. Norton and Mr. Graves to come up with a 
solution. And whatever they can craft that will do the job I 
want them to know that I will be supportive of.
    So thank you, and I yield back. 
    Ms. Norton. Thank you, Mr. Mica.
    I want to welcome our first witness now, Captain James 
Judkins, Jr., of Norfolk, Virginia, the emergency management 
coordinator of the Suffolk Department of Fire and Rescue, which 
is a part of the division of emergency management.
    Mr. Judkins, I want to particularly thank you for driving 
what I understand was 4 hours here in that traffic. I really 
appreciate it, because while we have very informed 
representatives from the Emergency Management Association, I 
always like these hearings to have a person who is on the 
ground right now, who has had experiences with what we are 
talking about. So we particularly value your testimony, and we 
will receive it now.

   TESTIMONY OF JAMES T. JUDKINS, JR., EMERGENCY MANAGEMENT 
COORDINATOR, SUFFOLK DEPARTMENT OF FIRE AND RESCUE, DIVISION OF 
                      EMERGENCY MANAGEMENT

    Mr. Judkins. Thank you, Madam Chair and distinguished 
Members of the Committee. I appreciate the opportunity to share 
with you some stories that happened on the 28th of April when 
an F-3 tornado impacted the City of Suffolk, Virginia. And that 
is the worst natural disaster that has affected our city in the 
400 years that our city has been around.
    We were very blessed in the fact that there were over 500 
structures, both residential and commercial, that were 
impacted, 49 of those were totally wiped out, but in the 
aftermath, no one lost their lives. Only six people required 
hospitalization, leaving the rest of them just to be treated by 
the paramedics in the field and the hospital emergency rooms 
and the local urgent care centers.
    I have several stories I would like to share with you that 
our responders and our news media gleaned from those people 
involved.
    In the first case, it goes like this: On the afternoon of 
the storm, a resident of the Hillpoint Farm subdivision was on 
his way home in his pickup truck when he heard on the radio 
what he described as several EAS activation alerts specific for 
the City of Suffolk. He immediately cell-phoned his wife and 
advised her to watch the skies and take cover in the hallway if 
she happens to spot a funnel cloud. A little while later, he 
received a frantic call from his wife who was huddled in the 
downstairs hallway as the twister roared outside and severely 
damaged their house.
    In the second case, "I had the radio on," states this one 
lady, "and I heard them talking about a tornado approaching. I 
thought, 'We don't have to worry about that.'" The man of the 
house was upstairs working on his computer. The wife was 
downstairs, looking out the window. And a moment later, there 
was nothing but debris in the air. Suddenly, the glass in the 
house began to break. And within seconds, the husband and wife 
found each other and ducked into a closet as they watched their 
house come apart all around them. Pictures blew off the walls, 
mattresses tumbled down the hall, and lamps were sucked out the 
windows.
    In case number three, upon hearing the weather alert on 
television, this family took cover in a small half-bath on the 
second floor. The walls and windows of the rooms next to and 
below the bathroom were blasted away by the twister's force.
    Case number four: A grandmother reports she is still shaken 
from what is described as a horrifying experience. This senior 
citizen, who breathes with the aid of portable oxygen, was 
sitting in her home's south-facing sunroom with her sister and 
moved to heed a televised weather warning. They had only gotten 
a few steps into the interior hallway before the twister struck 
their home.
    Case number five: First responders reported this story, 
that of a grandmother and her granddaughter who literally rode 
out the storm in a bathtub. In that account, upon hearing the 
warning, the grandmother and child took cover in their 
bathroom, grasping each other, clutching each other as they 
nestled themselves in the tub. The tornado leveled their home 
and tossed the tub, with its precious contents, in a nearby 
lake.
    Case six: This case is personal to me because it involves 
my mother and my aunt. My aunt was terminally ill, and my 
mother was caring for her. They were watching television when 
the weather alert sounded. Specific information for the 
community in which they live, the subdivision in which they 
live, were broadcast. Mom managed to get my aunt and herself 
into the interior hallway just as the rear of the home was torn 
away.
    And finally, case seven: Spring athletics are under way in 
the City of Suffolk at this time. The teams were on their 
respective practice fields when the school officials received 
the tornado warning via the All Hazards Weather Radio. The 
athletes were directed to the school's interior hallways for 
refuge.
    In each of these seven cases, there are two common factors. 
The first and most remarkable and most important to me is the 
fact that no one was seriously injured or died. And secondly, 
those life-saving measures that each one of those people took 
were prompted by an Emergency Alert System message.
    In my 28-plus years' experience, I find that here is no 
perfect alert system. Sirens will fail either mechanically or 
nowadays it fails because people with their portable listening 
devices can't hear them because their music is so loud. Weather 
radios for an unexplained reason get turned off because they 
are ignored by the weekly test that they have, and they turn 
them off. More and more people find themselves listening to 
satellite radio and watching satellite TV. They are not getting 
the local messages there. Subscriber-based weather warning 
systems work well transmitting messages to the cell phones, but 
they require that you preregister.
    My grandmother once said that you can lead a mule to water 
but you can't force him to drink. The same thing applies, I 
feel, to warning systems. Each of us has a responsibility to 
our families for their safety and well-being. And that 
responsibility includes knowing your community's warning 
systems and having a method to receive those emergency 
messages.
    I thank you for your time.
    Ms. Norton. Well, thank you very much, Mr. Judkins. Those 
are exactly the kinds of case examples we are interested to 
hear.
    Now, in your examples, all heard the EAS over the radio or 
the television, isn't that right?
    Mr. Judkins. That is correct.
    Ms. Norton. So the EAS works well when the radio and the 
television are on, as most commercial radio? It works well if 
you have it on.
    But you indicated that if you didn't happen to have your 
radio on but you had a cell phone, you have to preregister. And 
of course that is because not everybody wants their cell phone 
number known.
    In your community, is there a system, as we have in some 
communities? I think here in the District of Columbia, 
telephones inside the home can ring in advance with a warning.
    Mr. Judkins. The only system that we have in the city is 
what we call reverse 911, and you have to pretty well program 
the numbers in an area that you want to respond. It is an older 
reverse 911 system. So it is limited by outgoing phone lines. 
The newer 911 systems are Internet-based; therefore, you get 
more and more messages out quicker. But they still have to 
define an area that you have. So it takes time to set up an 
outgoing message like that.
    In my office, I have the ability to use what we call cable 
voice override, which I can--from any phone I can send out an 
emergency message, and that will override whatever channel our 
residents are listening to, regardless of what channel it is on 
that cable system.
    Ms. Norton. So those have been programmed in.
    Mr. Judkins. The way that works, I have a phone number that 
I dial in, and after I go through a series of hoops, and then 
it just totally overrides everybody, whatever they are 
watching. But, again, they have to have their TV on; they have 
to have their TV on. And they have to be a subscriber to the 
local cable channel. So that is the limitations of that system.
    So, as you see, there are limitations to both that system 
and the system of reverse 911. The subscriber----
    Ms. Norton. Well, the reverse 911, does the local 
jurisdiction already have the phone numbers so it doesn't have 
to go to get it pre-registered?
    Mr. Judkins. Well, on that, they have a--they subscribe to 
a number bank from our local phone provider, which is Verizon. 
Now, the downfall of that, if you have an unlisted phone 
number, then your number is not in that bank that you get from 
the phone company.
    And then you have to geographically set up the area in 
which you want to call. And it takes time. There are other 
systems out there that work a lot faster, but still you have to 
set up the geographic area. Even with the Internet-based 
system, it will blast the calls out really fast, but it still 
takes time to set up that area in which you want to call.
    Ms. Norton. When we get into the differences between 
systems, you know, I am almost driven back to saying, will 
somebody just have a whistle that blows loudly in the 
community? Back in the day, somehow that whistle was 
understood.
    I mean, I am hearing what you are saying. I wonder if 
improvements in the EAS are the way to do this. Do you think 
that the EAS could accommodate different modes of 
communication, some that people subscribe to, some that they 
don't, some that require the jurisdiction to have programmed in 
the numbers, all the rest? Do you think we can design an EAS 
system that is truly universal?
    Mr. Judkins. I think with the technology that we have, we 
definitely--it is capable. And with the number of cell phones 
out there, that is definitely a good way to push it out. Home 
telephones, if you are like me, you let the answering machine 
catch that so you won't be bothered by telemarketers.
    But, again, I would just like to revert back, there is 
positively no 100 percent way to get the message out. We have 
to do a good job to get the message out to as many people as we 
can and to educate our people that it is our responsibility to 
try to be on the lookout for those messages, especially if we 
know severe weather is threatening our area.
    Ms. Norton. Thank you.
    I am going to go next to Mr. Graves.
    Mr. Graves. Thank you, Madam Chair.
    And thanks for being here, Captain. I appreciate it.
    I was the head of our volunteer fire department for 12 
years in my little town of Tarkio. And my district is a 
district that has 26 counties in it. Three of them are 
suburban, and the rest of it is extraordinarily rural. And we 
would go through the motion, every time we would have a warning 
go out, we would all show up down at the fire department, and 
we would get the trucks out, and the police cars would 
participate, and we would drive up and down the streets, 
blowing the sirens, hoping that people got the message. That is 
still in place today.
    And then we would also, kind of, initiate an ad hoc call-in 
tree. You would call your family, and then you would call your 
parents, and then you would call your brother and sister, and 
then they would call their friends. And, you know, you would 
hope it would spread just as quickly as possible.
    So I know the frailties of the system, particularly at 
night when most people are asleep. And it is startling, the 
difference in, you know, casualties at night as opposed to, 
say, during the day when people might be paying attention.
    But it seems to me like--and I know the technology is 
there. Because, to me, in a district like me, we do a lot of 
tele-town-hall meeting. And we launch them from--whether it is 
in my home district or whether I am out here in D.C., we will 
launch 35,000, 36,000 calls in one evening instantly to folks 
throughout the district. And if they pick up, they come 
onboard. But regardless, they listen to our prerecorded 
message. And I come on the line, and we take questions and do 
the whole thing. But we do instantly launch 30,000, 36,000 
calls. I live in a county that only has 7,000 people in it. It 
would seem to me like--I know the technology is there. We just 
have to get it in place.
    But my question to you is, what are the three challenges 
that you see right now in developing a system that works 
nationwide?
    And, obviously, Chairman Norton and myself, we represent 
completely different districts. She has a very urban district, 
and I have a very rural district. And that is the reason why I 
think it is a perfect match, introducing this bill together, 
because between the two of us, we have to be able to cover 
everybody out there and take care of them.
    But what do you see as the three major challenges for 
districts such as the Chairman's and mine, which is very rural?
    Mr. Judkins. I think, first of all, the first challenge 
would be identifying the medium, how do you want to get it out 
there.
    The second challenge, of course, is getting buy-in on that, 
getting buy-in of course from the legislatures, getting buy-in 
from the broadcasters, getting buy-in from the folks that run 
the communications systems, whatever they be.
    And the third thing, probably maybe depending on how we 
wind up pushing this out, the third thing would be getting buy-
in from the citizens. Again, they have to be willing to hear 
the message. If it is voluntarily, probably some may do it, 
some may not. But if it is something that is going to be 
pushed, then that is something that probably will work.
    And then there is a challenge of the type of messages. If 
you put every weather alert message that is generated by NOAA 
Weather Radio, then some people will get really irritated, get 
woke up at 3 o'clock in the morning when the local fog advisory 
or the local freeze advisory comes out. So there has to be some 
way to gauge the type of message that you want to go out.
    So I see those as the challenges.
    Mr. Graves. Bear in mind--and I think the phone system is 
the best simply because, a lot of cases, at least in the rural 
areas, if you lose a line because of the tornado or the storm 
is still ahead of you, you know, you end up losing a line, the 
lights go out and electricity goes out, but the phone is still 
working. And, quite frankly, very few people in my district in 
the rural parts have cable anyway. So even being able to 
integrate a cable system is going to make it tough too.
    But I would agree, though, that it would have to be a 
system--obviously, in an urban setting, that is much more--you 
know, that works much better to tie in the multiple mediums.
    But I appreciate you being here. I think this is a huge, 
huge task that we are undertaking. But we want to remember all 
of the--there are a lot of aspects out there, a lot of aspects 
in getting that message out. But I think people would be very 
interested in it. And the buy-in, I think, at least from the 
public, is going to be there. That is, the buy-in from some of 
the medias is going to be a little bit tougher.
    Thanks, Madam Chair.
    Ms. Norton. Thank you, Mr. Graves.
    Mr. Carney?
    Mr. Carney. Thank you, Madam Chair.
    I just have a couple of questions. I actually represent a 
district much like Mr. Graves. It is an extremely rural part of 
northeastern central Pennsylvania. In fact, I am either blessed 
or damned to not even have cell service at my house. Most times 
I appreciate that, frankly, but occasionally it seems like it 
might be an awfully useful tool in inclement weather.
    From your perspective, what is the most effective way to 
get messages out, from your experience and from what you have 
heard from your colleagues around the country?
    Mr. Judkins. Well, right now, my locality is pretty much 
like yours, we are rural/urban. There is a large portion of our 
city that is still farm community. Usually, when we have an 
event like we experienced in April, the first thing the media 
guys want to shove a microphone in your face is, why don't you 
have sirens? Well, how many sirens do you think it would take 
to cover 430 square miles? And then there are all the frailties 
of the siren system.
    So, as it stands right now, with the technology that we 
currently have in place, I feel that it would be a toss-up 
between--NOAA All has its radio, basically because, if you 
happen to get one of the newer models that has the local code 
probed in, you don't get irritated by hearing your neighbor's 
weather and get awakened by messages you don't want. And that 
is one of the issues that I push out to the people that I do 
outreach for.
    And, of course, the next best system probably that is out 
there right now is some of your systems that localities can 
purchase. They are very expensive, but they can blast a lot of 
messages out to a lot of people very quickly. They are 
Internet-based, and you can place the numbers in via a 
purchased telephone list to the local subscribers, and you can 
get a lot of messages out quick. But, again, that system is 
very expensive, and localities like mine just do not have the 
emergency management budget to take anything like that.
    Mr. Carney. That is true.
    I was also intrigued by your comment of folks listening to 
satellite radio now, the subscription rates are through the 
ceiling, and that hurts their ability to hear broadcasts of 
warnings.
    Is there a way--and, frankly, I don't know the answer to 
this. Is there a way that you can interrupt the satellite 
broadcast to issue a message, issue a warning?
    Mr. Judkins. Well, I am not an electronics guru, but with 
the technology folks we have out in the world today, I am sure 
there would be a way. The real challenge would be to be able to 
get the message to the area in which you would want it to go.
    In some localities, DirecTV also has the reception for 
local channels. Some technology along that line might work for 
that. But you would have to have something within the system 
that would be able to pull in that local message so people 
would be hearing all the message from for all of the country or 
all of that particular coverage area for that satellite system.
    Mr. Carney. Thank you.
    No further questions at this time, Madam Chair.
    Ms. Norton. Does the gentleman from New York have 
questions?
    Mr. Arcuri. No, ma'am.
    Ms. Norton. Okay, thank you.
    Just a couple more questions. Do all the broadcasters in 
your area participate voluntarily?
    Mr. Judkins. No. All of them don't; the majority do. I can 
safely say that the major TV stations all participate, and that 
is where we get the most of our coverage. The majority of the 
radio stations do, but not all of them, again, because it is a 
voluntary system for local messages.
    But as a matter of fact, the tornado that we had the other 
day, that is how I got the message. I was out of the office, 
and I heard the EAS on my vehicle radio, and that prompted me 
to get back to the office. And, of course, while I was en 
route, I got the call from my dispatcher that she had gotten a 
teletype message down from the Virginia Emergency Operations 
Center that we were under a warning. So that is the way the 
message flows in our city.
    Ms. Norton. Well, the ones that don't, is there a cost to 
them if they do subscribe to EAS in any way?
    Mr. Judkins. You are talking about the broadcasters?
    Ms. Norton. Yes. The ones, for example, that don't 
subscribe.
    Mr. Judkins. I don't have an answer to that question.
    Ms. Norton. We will ask the next witness. I thought it is a 
fairly easy system that everybody would want to be on. I would 
hate to have a radio station with people listening, where they 
didn't hear it on my radio station but my neighbor did, and my 
neighbor went for cover and I didn't. So I am interested in 
that. But we will find out about that.
    Well, again, you will have to forgive me, Captain Judkins, 
I am driven back to sirens. Are sirens used at all any longer?
    Mr. Judkins. In the Hampton Roads area, the siren is the 
alert method of choice for the nuclear power plants.
    Ms. Norton. For what?
    Mr. Judkins. For the Surry nuclear power plant, and they 
are for North Anna and the other nuclear power plants that 
service the Commonwealth. They are also backed up by radio and 
TV EAS alerts, but they do have sirens out.
    They test them on a regular basis, but I can't remember 
when every single siren have worked on every test. It is 
usually one or two that don't work at times. There are always 
mechanical issues.
    Keep in mind, also, there is a number of the rural 
jurisdiction across the Commonwealth that still use sirens to 
alert volunteer firefighters. Then it becomes the question as 
to, what does the siren going off mean? Is it a fire? Is it an 
alert at a nuclear power plant?
    Ms. Norton. Well, you wouldn't use it for a fire. We are 
talking about as part of the EAS system.
    Mr. Judkins. Right. But keep in mind, there is still a 
number of jurisdictions in the Commonwealth that still use that 
system to alert local volunteer firefighters.
    Ms. Norton. Yeah, one would have to--the only reason I am 
driven to it is the technical--well, first, you are talking 
about the sirens. You know, imagine getting to everybody's cell 
phone.
    Mr. Judkins. Right.
    Ms. Norton. Some cell phones work, in some places they 
don't. They drop calls. I would hate to depend on that to alert 
me. And I recognize that sirens go off, not all of them work. 
Just try asking your neighbors how often their cell phones 
work. I just would be--particularly given--well, the Ranking 
Member says that is all they have in his district. And in rural 
areas, most people don't even have cable. They may not use cell 
phones as often as they do in big cities. I just don't know why 
we would abandon that technology instead of having everybody to 
at least understand it.
    For example, in a tornado, I am here talking about things 
where there is a flash. You know, with a hurricane, usually you 
have some warning. But I must say, they have had tornado 
warnings even here recently. And the whole point there--and, of 
course, the radio is very good, and a lot of false positives, 
and that is fine. But you talked about it somewhere, you had 
better get yourself together in 3 seconds. I don't understand--
just getting yourself to cover, much less picking up the phone, 
hearing what it is all about. It seems to me that, particularly 
for certain kinds of events, events that might be almost 
immediate, like tornadoes, I don't know why I wouldn't want to 
hear a siren rather than, you know, not be near a cell phone or 
even one of these reverse 911 calls.
    I just don't know why we do not want to rely on them at 
all, particularly since it looks like this isn't going to be 
universal anytime soon. And even if it is, it depends upon you 
having the technology, the telephone, the radio. It has to be 
on. The cell phone has to be where you can pick it up. I can 
understand that for a hurricane. Most hurricanes don't come 
upon us without some warning. Even Katrina had a warning. But I 
am worried about events for which there is little warning.
    I must say, some of those were in your own case studies. 
But all those people happened to have the radio or the 
television on, didn't they?
    Mr. Judkins. Yes, ma'am. They just luckily had their 
communication device. Some of the military bases are 
experimenting and actually purchased and installed a 
loudspeaker-type system. It is unbelievably clear, and that can 
put out messages to large areas with an unbelievably clear 
signal.
    I saw a demonstration at one of my conferences I was 
attending a while back. And that is a solution that possibly 
could be used in smaller communities where you have a lot of 
people clumped together. You are actually hearing a message, 
you know what to do, you know how long you have to do it.
    But, again, it is the thing of people being able to hear. 
If they have their iPods on and the music cranking, they 
wouldn't hear that. They wouldn't hear the sirens.
    Ms. Norton. I can think of some sirens they might hear. I 
think that could be adjusted so that they would hear them over 
something in their ear, because a lot of people do carry 
things.
    You know, because you are on the ground, because you had 
case studies and because you have a far-flung area, I am 
particularly interested in how to quickly reach people. Now, I 
recognize that we are not--even if we were talking about a 
terrorist alert_we are not talking about somebody that is 
coming with a bomb. That is usually not the way even wars or 
enemies fight any longer.
    But FEMA is more about natural disasters than about 
anything else, because that is what we have every year. So I am 
a little concerned about getting so fancy, so high-tech that 
essentially we get to over-depend upon people listening for the 
alert. We forget that there are people who love silence, don't 
have anything on. There are people in hospitals where there may 
not be radios and where silence is valued. There are people in 
libraries. So, you know, I am always skeptical but particularly 
skeptical about making this universally appear and be 
universally effective without understanding how diverse all of 
us are.
    Are there any more questions of any members of the panel?
    If not, I want to thank Captain Judkins. Your testimony has 
been very, very useful to the Committee, and particularly thank 
you for the long trip.
    I want to call then--the next witness is Major General 
Martha T. Rainville, retired, who is the assistant 
administrator at FEMA, National Community Program Directorate; 
and Chief Derek K. Poarch, chief of the Public Safety and 
Homeland Security Bureau of the FCC.
    However, I do want to note and express my condolences to 
Mr. Poarch, who is not here because of a death in the family. 
So his deputy, Lisa Fowlkes, will be filling in.
    Thank you both.
    Ms. Rainville, let's begin with you.

   TESTIMONY OF MAJOR GENERAL MARTHA T. RAINVILLE, ASSISTANT 
ADMINISTRATOR, NATIONAL CONTINUITY PROGRAM DIRECTORATE, FEDERAL 
EMERGENCY MANAGEMENT AGENCY; LISA FOWLKES, DEPUTY CHIEF, PUBLIC 
  SAFETY AND HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS 
                           COMMISSION

    General Rainville. Good morning, Madam Chairman, Ranking 
Member Graves, Members of the Subcommittee. I am Martha 
Rainville, the assistant administrator for FEMA's National 
Continuity Program Directorate. And I want to thank you for 
this opportunity to share with you this morning the progress 
that FEMA is making with the Integrated Public Alert and 
Warning System.
    The Emergency Alert System has served us well, but it is 
based on technology that is about 15 years old. Through IPAWS, 
FEMA and our partners are transforming the alert system from an 
audio-only signal that is sent over radios and televisions, as 
we have discussed earlier, to one that can support audio, 
video, text and data alert messages sent to residential 
telephones, Web sites, pagers, e-mail accounts and to cell 
phones. The mission of the IPAWS program is simply to send one 
message over more channels to more people at all times and 
places.
    My written testimony, which has been submitted for the 
record, lays out in detail, first, the importance of 
interagency cooperation and public-private partnership in 
improving the Nation's alert warning system, lessons learned 
through our 2007 pilot programs in the Gulf States, and also 
the next steps that FEMA will take in developing IPAWS.
    The success of IPAWS depends heavily on the interagency 
cooperation and the public-private partnerships. FEMA works 
closely with our partners at the National Oceanic and 
Atmospheric Administration, the National Weather Service, and 
the Federal Communications Commission to ensure the 
coordination of effort when it comes to upgrading, improving 
and securing integrated public alerts and warning. We also 
coordinate extensively with others, such as the Primary Entry 
Point Advisory Committee and the Association of Public 
Television Stations on systems upgrades.
    Congress allocated funds in the fiscal year 2005 Katrina 
supplemental that enabled us to deploy a suite of new alert 
warning capabilities in Mississippi, Louisiana and Alabama 
during the hurricane season 2007. So, for the first time, these 
State emergency management officials had the ability to send 
alerts via American Sign Language video to residents who are 
deaf or hard of hearing and to send prerecorded messages in 
Spanish to residents who do not speak English.
    These successful pilots ended in December 2007 on schedule. 
And since then, through the State homeland security program 
grants, FEMA continues to support State and local governments 
seeking to improve their alert capabilities. And in fiscal 
years 2006 and 2007, 27 States received more than $1 billion 
through this program, which includes an eligible category to 
support alert systems.
    This year, FEMA is taking steps to improve alert and 
warning infrastructure and to increase the dependability of the 
national system.
    First, we are strengthening the Federal Government's 
ability to send emergency warnings directly to the American 
people by increasing the primary entry-point stations from 36 
to 63. This will enable Federal warnings to reach 85 percent of 
the American public directly, up from 70 percent currently.
    Second, we are increasing the survivability and resilience 
of the national alert and warning system through digital EAS. 
Digital EAS adds the direct transmission of voice, video or 
text alert to stations across the country over the PBS 
satellite network. It will also allow the distribution of 
alerts in multiple languages. And later this summer, FEMA will 
roll out digital EAS into the eight States and one territory 
that participated in a previous pilot. These States are 
Alabama, Alaska, Florida, Louisiana, Mississippi, New Jersey, 
Texas, South Carolina and Puerto Rico. We will also expand 
digital EAS beyond these original nine locations to five more 
locations this year.
    Third, we are increasing the capacity of the national alert 
system by incorporating NOAA's infrastructure into the IPAWS 
architecture. Through NOAA's national network, IPAWS gains 
another redundant path to State and local entities, 
broadcasters and the public.
    And, finally, as announced on May 27th by Administrator 
Paulison, FEMA will assume the Federal aggregator gateway role 
for cellular mobile alerts. And we will work with DHS Science 
and Technology to develop, test and integrate the technical 
solution and with FCC to make the alert aggregator operational.
    Our goal is to ensure that the President can send an alert 
to the public during an all-hazards event and to support 
capabilities chosen by State and local officials. And, together 
with our partners, we will ensure that IPAWS is reliable, 
resilient and secure.
    So thank you, Madam Chairwoman and Ranking Member Graves 
and others, for this opportunity to tell you what FEMA is doing 
with IPAWS.
    Ms. Norton. Thank you, Ms. Rainville.
    Ms. Fowlkes?
    Ms. Fowlkes. Good morning, Madam Chairwoman Norton, Ranking 
Member Graves, and Members of the House Subcommittee on 
Economic Development, Public Buildings and Emergency 
Management. Thank you for the opportunity to appear before you 
today on behalf of the Federal Communications Commission to 
discuss our efforts to develop a robust and reliable emergency 
alert system and to establish a Commercial Mobile Alert System, 
otherwise known as the CMAS, as required by the Warning Alert 
and Response Network Act.
    The Commission's efforts are consistent with the goal of 
H.R. 6038, legislation introduced by Ranking Member Graves and 
cosponsored by Chair Norton, which is to improve the ability to 
alert the residents of the United States of all potential 
hazards under all conditions. I will briefly summarize the 
Commission's efforts in these areas to date.
    For over 50 years, the U.S. has had a mechanism in place to 
deliver alerts to the American public, particularly for the 
President to communicate with the public in the event of a 
national emergency. That system, the EAS, requires EAS 
participants, including radio television and cable systems, to 
deliver emergency alerts to the public.
    The FCC continues to enhance the manner in which this alert 
and warning system takes advantage of new technologies. For 
example, in 2005, the Commission expanded scope of EAS to 
include digital broadcast radio and television, digital cable, 
and satellite radio and television. Last year, the Commission 
expanded the EAS to include Internet protocol-based video 
programming services offered by wire-line telephone companies.
    The Commission has taken steps to ensure more robust and 
reliable next-generation EAS. Last year, the Commission 
required EAS participants to have the capability to receive 
common alerting protocol formatted EAS alerts no later than 180 
days after FEMA publishes the CAP technical standards and 
requirements.
    The Commission also required commercially based EAS 
participants to transmit State and local EAS alerts that are 
originated by Governors or their designees no later than 180 
days after FEMA publishes its adoption of the CAP standard, 
provided that the State has submitted and received Commission 
approval for a State EAS plan that describes how such alerts 
will be transmitted.
    The Commission has also taken steps to establish a 
Commercial Mobile Alert System pursuant to the WARN Act. Under 
the statute, the Commission was required to undertake a series 
of actions within tight statutory deadlines. I am pleased to 
report that the Commission has met all of its WARN Act 
deadlines to date.
    First, the Commission was required to establish and convene 
an advisory committee to recommend technical requirements by 
which commercial mobile service, or CMS, providers could 
voluntarily transmit emergency alerts. The Commission 
established an advisory committee, the Commercial Mobile 
Service Alert Advisory Committee, consisting of a balanced 
array of experts. As required by the WARN Act, the committee 
held its first meeting on December 12, 2006.
    Next, the WARN Act required that the advisory committee 
develop and submit its recommendations to the Commission by 
October 12, 2007. The CMSAAC submitted its report to the 
Commission in a timely manner, recommending an end-to-end 
alerting system under which a federally administered alert 
aggregator would aggregate and authenticate alerts received 
from Federal, State, tribal and local governments. The alerts 
would then be sent to an alert gateway which would process the 
alert into a 90-character format that could be sent to CMS 
providers. The alert would then be sent to gateways and 
infrastructure administered by CMS providers and then 
ultimately transmitted to subscribers' handsets.
    By April 9, 2008, the Commission was required to adopt 
technical requirements based on the advisory committee's 
recommendations. I am pleased to report that the Commission 
released its first report in order adopting those requirements 
by the statutorily required date. The Commission's order 
generally adopted the advisory committee's recommendations, 
including its end-to-end CMAS architecture proposal. The FCC 
also agreed that the Federal Government entity should perform 
the alert aggregator and alert gateway functions, and we are 
pleased that FEMA has announced that it will perform these 
functions.
    The Commission's order also adopted technical requirements 
for CMAS elements controlled by CMS providers. In addition, the 
order adopted rules requiring participating CMS providers to 
transmit three classes of emergency alerts--presidential; 
imminent threats, such as a tornado or hurricane warnings; and 
AMBER Alerts--to target alerts at areas no larger than the 
county level and include an audio attention signal and 
vibration cadence on CMAS-capable handsets.
    Over the next several months, the Commission will continue 
to take steps to improve the EAS and to establish the CMAS. The 
Commission is currently working on an order that would address 
the best ways to ensure that non-English-speaking Americans and 
those with disabilities are able to receive EAS alerts. In 
addition, during the summer, the Commission will adopt rules 
that, among other things, address the process by which CMS 
providers must elect whether they will transmit alerts over the 
CMAS.
    The Commission will continue to coordinate with all 
stakeholders on alert and warning issues. The Commission looks 
forward to continuing to work with FEMA on EAS and CMAS issues 
and stands ready to support FEMA in implementation of H.R. 6038 
should it be enacted.
    Thank you for the opportunity to appear before you today. 
This concludes my testimony, and I would be pleased to answer 
any questions.
    Chief Poarch has also included additional information on 
EAS and CMAS in his written testimony.
    Ms. Norton. Thank you, Ms. Fowlkes.
    Could I ask you both that if there were a need for a 
National Emergency Alert today, can you assure us if the public 
would receive it in time? I ask each of you.
    General Rainville. Yes, ma'am. We feel confident at FEMA 
that the Nation would receive the alert.
    Ms. Norton. How?
    General Rainville. We test the PEP station--through the 
FEMA Operations Center to the PEP Station is the origination of 
the alert. We test the PEP stations monthly.
    So we feel confident that that can get through to 70 
percent currently, until we add the other PEP stations this 
year; and then 85 percent directly through the PEPs. But then 
the PEPs cascade the message down through a chain to local 
stations so that the States are responsible for that piece of 
it.
    But we feel confident through the messages going out 
through NOAA and others, that reach 98 percent of the public, 
that we can also get an EAS message out. Clearly, there is a 
need to modernize and upgrade the system to add redundancy, to 
add resiliency to it, to add layers of alerts and methods of 
alerts to the current system; because, as you said earlier, not 
everyone is watching television or listening to the radio.
    Ms. Norton. Ms. Fowlkes?
    Ms. Fowlkes. From the FCC's perspective, we continue to do 
everything that we certainly can to ensure that communications 
service providers, upon receiving the alert, are able to 
transmit it out so that the public gets it in a timely fashion. 
We do this through required monthly and weekly testing of the 
Emergency Alert System which requires participation by EAS 
participants.
    We have also taken steps to prepare EAS participants for 
next-generation emergency alerts, the Emergency Alert System. 
In the context of CMAS, we have been working with the industry, 
working with FEMA and others to ensure that that mobile 
alerting system will be able to receive and transmit alerts in 
a timely fashion.
    Under the committee's recommendations, there were a number 
of elements to ensure redundancy and resiliency in that system. 
There were a number of other actions taken by the Commission to 
ensure timely alerts with that respect. So, again, the 
Commission certainly is doing everything that it can to ensure 
that EAS participants or CMAS participants will be able to send 
out the alerts in a very timely fashion.
    Ms. Norton. Well, I ask you, Major General Rainville, there 
has been considerable impatience--I should say the natives are 
restless--the sense that leadership is needed if we are to 
upgrade this system.
    Are you saying in your testimony that there needs to be a 
forum, or at least that you recognize that a forum would be 
useful because of how diverse the stakeholder groups are?
    Now the GAO recommended such forums simply to inform the 
agency the way we are being informed this morning.
    Are any such forums going on? Are they planned? When? 
Through what vehicle?
    General Rainville. Thank you for that question, because one 
of the most important lessons from the pilots on the Gulf last 
year was that that one solution won't work for everybody and 
that States have different needs and different best ways of 
alerting their populations.
    We need to listen to the States, to the emergency managers, 
which, like the Captain we have here this morning, so that we 
get it right in whatever our solution is.
    We are informally meeting with State emergency managers 
through the FEMA regions, we are working with IAEM and other 
groups to get their feedback on, but we will be setting up a 
formal group, an advisory group, if you will, that will work to 
make sure to inform the IPAWS program.
    We haven't determined the membership yet. We are actually 
working with IAEM to help us with that, with APTS and PBS as 
well. So, informally we have. I want to get it formally 
established so that we have a standing advisory group.
    Ms. Norton. What is the cause of the delay here? You have 
people now taking their own initiative? The Ranking Member 
talked about the almost danger, the risk, that we will have a 
patchwork. If you have too much of a patchwork, you don't have 
what we were after Katrina and after 9/11. What is the problem 
with even getting a forum going, forums going around the 
country?
    General Rainville. I think that is a very good question, 
Madam Chairwoman. One of the questions was what type of forum 
can we legally establish to work our way through that?
    Ms. Norton. Let's talk about such forums, because that is 
the only problem-- you have got somebody sitting right behind 
you from Norfolk, wait a minute, Suffolk, who can tell you what 
kinds of forums.
    I really want--let's go to Ms. Fowlkes, because the FCC has 
required EAS participants to have the ability to receive the 
CAP EAS alert no later than 180 days after FEMA publishes its 
standards.
    Let me ask you whether or not you recommend the CMSAAC, the 
Mobile Alert Advisory Committee, as a model for handling this 
issue in the future?
    Ms. Fowlkes. Well, what I can tell you is from the FCC's 
perspective, the CMSAAC worked well in this case. We were very 
fortunate to have people from different perspectives--and I 
have to give the wireless industry credit, because we had all 
the major carriers on the committee--and they all worked well 
together, and everyone was very serious in trying to get to 
some technical--some viable technical recommendations that 
everyone could live with within the statutorily mandated time 
period.
    That, of course, helped the Commission, when the Commission 
had to start complying with statutory deadlines in its 
rulemaking.
    I stress "in this case" because an advisory committee is 
made up of people, and people have their own agendas and 
personalities. So if you don't have the right people on the 
advisory committee, you don't necessarily get the same results.
    Ms. Norton. That is essential, Ms. Fowlkes, if you don't 
have the right people--if you don't have the right people 
sitting up here. We all have to--people took a chance on all of 
us. We don't know if we are the right people.
    It seems to me there would be less of a chance given all 
the Emergency Management Apparatus we have in the country. 
Including putting together who the right people. I am 
concerned, and I am really reflecting the concern out there in 
the country, that if the threshold of who are the right people 
is stopping us, when we have had an emergency management 
network, for example, in terms of FEMA, for a very long time, 
very sophisticated on the ground--only people who can tell us 
anything about what we need to do--I just don't understand that 
that kind of matter about who should be on it, you know, if you 
have got the wrong people on it, okay, put some other people on 
it too, in your case, and for that matter in FEMA's case.
    For example, Congress has--there are grants to help offset 
the cost of upgrades.
    Are local governments applying for these grants, these EAS 
grants? If so, what kind of guidance can you give them, given 
the virtual starting point where you find yourself?
    General Rainville. I can speak to the area of alerts and 
warnings. As I said in my testimony, from 2006 and 2007,In 
those 2 years, 27 States applied for grants. That totalled 
about $1 billion that could be used for alerts and warnings.
    My counterparts in the Grants Directorate at FEMA could 
give you more detailed information. But we have been working 
with them, particularly since the Gulf pilots, when we saw the 
success of those capabilities being fielded, to be sure that 
language was written into the grants that would allow the 
States flexibility in using grant money for alerts and 
warnings.
    This is very important. Again, it is important that the 
States and locals determine what capabilities are most 
important to them, what their priorities are. Because what 
might be a useful siren system in one place won't work in 
another, or ETN or opt-in, whatever it might be.
    If you would like to have more specific grant information, 
I would like to get back with you on that information and 
divert----
    Ms. Norton. I am going to live this subject for a moment. 
Ms. Rainville, I am going to ask you to submit to this 
Committee-- first of all, let me say I admire that you all do 
pilots first because that also informs us.
    I am very concerned about the startup nature of this. I am 
going to ask that you submit to the Subcommittee within 30 days 
a plan for forums. You don't have to have all the forums 
going--and I would hope that would trigger the forums. Within 
FEMA, there are the experts who can tell you how to do this.
    Now, if you want to do a pilot forum first, so that you are 
sure of what kind of people--but it seems to me you should 
submit to us a plan for forums. You ought to be able to start 
at least one forum within the next 30 days. I think that would 
increase the confidence of the public that this matter is 
moving on.
    I am going to move to the Ranking Member now.
    Mr. Graves. Thank you, Madam Chairman.
    My question is for General Rainville.
    Last month the FCC held an emergency alert summit, and most 
of the panelists said that the greatest obstacle to progress 
was the lack of leadership in FEMA. As an example, they cited 
FEMA's failure to adopt a common alert protocol, which, as I 
understand it, it is critical for manufacturers to build the 
equipment for the programmers to write the software, for 
broadcasters to purchase the right equipment, for State and 
local officials to be sure that they upgrade their system to be 
sure that it is compatible with everyone else's system.
    My main question to you is, when is FEMA going to adopt 
that standard? When are you going to come up with the standards 
so that everybody can start working in the same direction?
    General Rainville. FEMA intends to announce its intention 
to adopt the CAP 1.1 in about 30 to 60 days. The time before 
that, and actually publishing the standards, is going to take 
an effort to define how we are going to meet the standard and 
how the rest of the community is. We are very concerned, 
because publishing the standard specifically starts the 180-day 
clock on compliance, with other Federal agencies, compliance by 
industry, as well.
    We know that many will need time to be able to comply once 
the standard is published. We want to use this time from 
announcing our intention to go to a specific standard, to let 
them begin work toward a reasonable standard, but not be locked 
into the 180-day clock that will result in many being 
uncompliant, regardless of the work they put into this.
    We have a particular issue with index encoder-decoders at 
the PEP stations that are no longer being manufactured. We 
would have to begin manufacturing those to have the 
broadcasters in compliance. So we want to work, again, through 
forums. But there are specific groups in working with industry, 
working with the emergency managers and working with the 
Federal partners, to make sure that what we come up with is 
something that we can all comply with and we can all produce 
and we will be successful. That is one of the reasons, the main 
reason, that we have been delayed.
    Mr. Graves. Well, you have to develop a consensus among all 
of the stakeholders and all of the folks out there. You have to 
do that. I need some assurance that you are going to do that.
    General Rainville. Yes, sir, it is the consensus first, but 
the other issue is to be able to physically comply with the 
equipment. It is the equipment manufacturing that has fallen by 
the wayside, and that will take time to regenerate to allow 
them to physically be compliant with this.
    Mr. Graves. It seems to me like we can't move forward until 
we have that protocol, until everybody is working or at least 
working towards that goal, that they have some sort of 
consensus to be working toward. So everything is kind of on 
hold until we get to that point.
    What do you say, 30 to 60 days you are going to have the 
protocol?
    General Rainville. Yes, sir, 30 to 60 days. What we were 
going to try to do is announce our intention to go a CAP 1.1. 
Many manufacturers are already using that as a standard. It is 
one that they will then know is going to be the standard to 
some degree.
    It won't hold up progress, but it will allow them time to 
be able to comply and allow industry time, as well as NOAA and 
FEMA, with our networks. We can also and will and are working 
with the SEC as well, because the rule that gives 180 days is 
another area of this we can look at to see if there is some 
relief there, so that we can announce and publish the standards 
and still allow the community time to comply.
    Mr. Graves. So when will there be a Federal standard, 
approximately?
    General Rainville. That would be something I would like to 
get back to you on. I can make a guess, but I don't think it 
would be fair to give you a timeline. We need to push this.
    Mr. Graves. Go ahead and guess.
    General Rainville. We need to be able to have a list of 
products and companies that produce the products for State and 
local emergency managers to choose and have confidence in. We 
have to make sure that manufacturers know the standard so that 
our system can be interoperable with what they are producing.
    So we are very anxious to get this going, but we are also 
trying to be very realistic to make sure that we can come out 
with something that is actually doable with them.
    Mr. Graves. You are the leadership. Go ahead and give me an 
estimate. Give me a guess.
    General.
    General Rainville. I would estimate, because of the 
manufacturing time that has been estimated to us for the end 
decks, using them as a start point, that it would be--after an 
announcement, it would be maybe 18 months before they would be 
able to get those in production.
    Again, we can get back to you with some of the other 
requirements that we know some of the other timelines on. We 
don't control that, but we have already been talking to 
companies that we know might be interested in producing them 
and trying to go get ahead of this sum so that we can keep 
pushing this.
    And that once we do come out with a standard, that we have 
some confidence that they are actually going ahead, and will be 
able to help us meet it.
    Mr. Graves. Thanks.
    Ms. Norton. Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chairwoman.
    You know, I think it is important that we not have a 
patchwork throughout the country, but I represent a district in 
New York. And one of the concerns that we have in New York is 
the fact that we have spent a great deal of money in our State 
in order to develop a system ourself, the New York Alert.
    Are there any assurances that we can get from FEMA, or what 
steps will FEMA take to try to integrate? We certainly don't 
want to detract from initiatives within the State, especially 
in States that have spent a great deal of money.
    Are there any steps to be taken to ensure that we can 
integrate what's being done locally and on a State level and 
whatever FEMA adopts?
    General Rainville. Absolutely. That is one of the goals of 
IPAWS is to have an integrated, interoperable system. New York 
has done a lot. Washington State has done a lot. The National 
Capital Region has a robust capability. What we are doing is 
working with them to be sure that the standards we come out 
with, that the systems we come out with for the national system 
will allow those capabilities to interoperate, that the States 
will be able to piggyback off on the national infrastructure, 
much like they do now with the current EAS.
    Not only do we learn a lot from the States and what they 
are doing, but we want to make sure that this integrated public 
alert warning system is just that, and will allow the States 
who have that capability to continue using that capability. 
That is why it is so important that we work with them, that we 
understand what they are doing and what their needs are, and 
where they are headed as well.
    Mr. Arcuri. What steps does FEMA take in order to let the 
State, particular States know the direction they are heading in 
to sort of lead, but in other words, give States some 
indication that, look, FEMA is heading in this direction, so 
you may want to taper what you are doing in the same direction 
that FEMA is heading?
    General Rainville. What we have been doing since IPAWS 
program management office was set up a year ago--particularly 
in the last 6 months--becoming active, going to conferences, 
going to the hurricane conference, going to the IAEM 
conferences. Wherever we are invited we go, and we talk about 
IPAWS and have an outreach program so that State and locals 
know what we are doing.
    We also have been working through the 10 FEMA regions. 
Region 1 has just appointed an IPAWS coordinator, and we are 
hoping to use that with the other regions as well. We did the 
pilots in the Gulf. We did other Digital EAS pilots in the nine 
States and territories. We are also using that as vehicles to 
learn who to reach out to in the States: emergency managers, 
obviously; governors, obviously.
    Homeland Security advisors in some cases are connected or 
not, but we can always do a better job, and we are just really, 
I feel, beginning down that path where we have done pilots. We 
are ready to roll out the first increment of IPAWS.
    As this is rolled out, we need to have an aggressive 
outreach and education to the States. In all of this we found 
that there are five States that have decided not to use EAS for 
their State system. We need to understand why that is, too, and 
work with them.
    Mr. Arcuri. I don't want to put you on the spot ask you 
which States, but you find some States are agents more amenable 
to working with FEMA and other States are a little more 
cooperative in terms of adapting the same type of strategy?
    General Rainville. What we found-- and I can give you the 
five States later, and I can probably name them, because I was 
very concerned, frankly, that some had decided not to use the 
system--but what we have learned is that the States as a whole 
tend to trust FEMA because we have longstanding relationships 
in other areas for emergency support, but they are very leery 
of having a Federal solution imposed on them because they, 
depending on their geographic location, they have different 
problems that they are going to face natural hazards.
    It is very important to them that we look at a solution, at 
an integrated solution that can support their choices. We are 
learning the best way to communicate with them, but it is an 
area that we really look forward to developing further our 
initial communications with them, our meetings with them, 
particularly along the Gulf Coast last year, were very, very 
informative and helpful.
    Mr. Arcuri. Thank you. Mr. Carney had to step out, but he 
asked me if it got to this point before he returned, if I would 
ask one question. He represents a district in northern 
Pennsylvania. His concern is this: With respect to IPAWS, how 
are you working to improve coverage to remote areas?
    He points out that in his district, which is rural, 
communication is not a foregone conclusion. He notes that he 
gets cell-phone service, but only if he stands in certain parts 
of his home. Many people in his rural communities don't benefit 
from the same level of telecommunications as other people do in 
suburbs and cities.
    What can they expect in that regard?
    General Rainville. Well, I can sympathize, because I come 
from northwestern Vermont where we just have no cell phone 
service at all.
    Our approach is, one, to layer capability, to maintain a 
vigorous alert system over radio and television that we 
currently have. To layer on that, we believe that probably the 
most effective next capability is the ETN, the Enhanced 
Telephone Notification, known as Reverse 911--which is a 
trademark term now--because more people have land lines, it is 
not an opt-in. We can push up to 60,000 calls in 10 minutes if 
the State telephone infrastructure can accommodate that.
    That is the next, we think, most effective capability 
short-term, while we continue to develop the opt-in for Web 
alerts, e-mail alerts, pager alerts, cell-phone alerts as well. 
Those are all layers that will help reach more people. But for 
the rural folks, we really need to make sure that we have, 
coming into digital EAS, that we have an ETN capability, that 
the States understand and have some funding streams for that as 
well, because that will really reach out to the rural.
    In those jurisdictions that choose to have siren, that the 
sirens can be tied into the alert system as well. Again, that 
is a local choice. It works for some and it doesn't for others. 
So the layered approach, we feel, is really the way to reach 
the people regardless of where they live.
    Mr. Arcuri. Thank you very much.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you, Mr. Arcuri.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chairman. General Rainville, my 
main question is: When does FEMA expect to have a fully 
integrated system that is going to be up and running?
    General Rainville. I am only smiling because we see this as 
the layered approach, and we see IPAWS as a continued 
development for alerts to upgrade the technology of alerts.
    However, we are rolling out the first increment of IPAWS' 
capability this fiscal year, this summer. We are fielding the 
digital EAS in the nine States and territory where we piloted 
it over the last 2 years, and we are adding five more locations 
to that this year.
    We also added NAWAS to two States, to Florida and 
Pennsylvania last year at their request. We are pushing on our 
work with geotargeting with NOAA to be able to do a better job 
with the cell phone alerts, which need geotargeting capability 
and with opt-in and encouraging States with ETN.
    While we continue to encourage to develop technology that 
we need to do a better job, we also are very firm about rolling 
out some capability now. The States need this now, not only the 
standards and protocols, but they need to understand the real 
capability that they have available to them.
    Mr. Dent. General, my next question deals with that. 
Researchers, I know, found that local officials need these 
public alert warning systems that meet some basic requirements.
    Specifically, they require delivery of warnings to the 
public in less than 2 minutes. This is especially true in 
common situations like tornados in which the windows of time to 
alert people to take cover is very, very short.
    Will IPAWS meet this requirement?
    General Rainville. I believe it will, for certain delivery 
methods now, and our work and development is to make sure that 
whatever we do, whether it is work as a Federal aggregator or 
whether it is developing better technology to deliver methods 
of different alerts, it is to make sure that we don't 
interfere, first of all, with the State message or delay the 
State message, and that we find ways to reach people the 
quickest way possible.
    The person with the cell phone is not going to get an ETN 
message at home, but they will get it on their cell phone. So 
that is very much on our minds.
    I think we will see realistically that the very quick 
breaking alerts for tornados, where they have less than 2 
minutes, it might be difficult to get a message through, just 
for the time that it takes that emergency manager to send the 
message out.
    But NOAA does a fabulous job of getting the alerts down to 
98 percent of the public. We are using NOAA's infrastructure, 
and NOAA is using our EAS as well, so that we can help each 
other with the timing.
    So I would say that if that is our goal, realistically, 
there are challenges with that, particularly with the no-notice 
events.
    Mr. Dent. Do you think broadcasters should be required to 
carry State and local alerts?
    General Rainville. I believe that the public deserves to 
get the alerts as soon as possible, over every means possible.
    Mr. Dent. I think that is a "yes."
    General Rainville. I am trying to stay out of trouble, but 
I know that our business is alerts and warnings, and our 
passion is making sure that people get life-saving information. 
I think that that should be available to everybody. However, I 
respect the judgment and the rights of the Governors in the 
States.
    I know that all of our partners feel the same we do about 
getting alerts out, and they are doing everything within their 
power to alert their residents.
    Mr. Dent. Thank you.
    I yield back, Madam Chairman.
    Ms. Norton. Thank you. Picking up really on your question, 
really for Ms. Fowlkes, you do have requirements for equipment 
and testing as a condition of licensing. You don't require, 
however, the broadcasters to certify their compliance.
    Given that we are trying to upgrade the system, shouldn't 
there be a more rigorous assessment of these broadcasters and 
their status?
    Ms. Fowlkes. Well, I think that the Commission already has 
a rigorous enforcement program with respect to EAS as well as 
its----
    Ms. Norton. You don't require them to certify their 
compliance?
    Ms. Fowlkes. We do inspections, and where we find----
    Ms. Norton. But you inspect about 10 percent of licensed 
broadcasters per year. I understand that you can't go around 
and inspect everybody.
    But as we try to modernize the system, living in the post-
9/11 period, are there any changes? I mean, these are old ways 
of doing business.
    Are there any changes you would make given the fact that we 
don't expect you to go around and look at every broadcaster to 
find some way, for example, to certify their compliance?
    Ms. Fowlkes. At this point, I am not--I do not know whether 
or not that is an issue that is currently before the 
Commission, so that is something--that specific issue is 
something I would have to get back to you on.
    Ms. Norton. I wish you would get back to us within 30 days 
on that. We are talking about upgrading the systems. That means 
the FCC, as well as FEMA, should be looking at what it used to 
do to see if it is the same as what it should continuing to be 
doing.
    Apparently there is a Federal requirement--help me on 
this--that if it is a Federal alert, then you have got to 
broadcast it. But, of course, not all of these broadcasters, we 
learned from Captain Judkins, are part of the EAS system. So it 
is hard for me to understand how there could be a Federal alert 
system where everybody would have to participate.
    Then there would be, apparently, a different way of 
regulating. I understand most or many broadcasters, for 
example, belong. How does the universal requirement stack up 
with whatever the States require people to do so that some 
don't even have to do it?
    General Rainville. What I can tell you is that the 
requirement that FEMA has is to maintain an emergency alert 
system that can be used to transmit Presidential message, that 
Federal alert message, in time of a national crisis.
    Ms. Norton. Do you have any idea how many broadcasters have 
not voluntarily decided to comply?
    General Rainville. It is concerning. I mean, there are 
certain categories. Obviously, as you well know, that are 
required that it is mandatory----
    Ms. Norton. As required of who, it is required--say that 
again?
    General Rainville. I can get you the list, but it is 
required of broadcasters and FCC can tell you who is not 
required.
    But the major broadcasters, including the cable and 
satellite are required. It is mandatory for them to carry the 
Federal alert, that Presidential message.
    Ms. Norton. We are the Federal Government.
    General Rainville. Yes, ma'am.
    Ms. Norton. We can talk about Federal alerts. But we are 
really talking about alerts, almost all of which emanate from 
the State.
    General Rainville. Absolutely.
    Ms. Norton. Ms. Fowlkes, let me ask you, what is if 
difference between those that are required by us and those 
States and others who apparently participate voluntarily?
    Ms. Fowlkes. Basically, in all broadcasts, all media 
companies basically, broadcast radio, television cable, so on 
and so forth are required to carry the presidential----
    Ms. Norton. So who does that leave out, please?
    Ms. Fowlkes. If they are just doing the Presidential alert, 
that is all they would be doing, the alert from FEMA.
    Ms. Norton. Everybody doesn't take that, right? Because--
does that mean every single broadcast media must, in fact, do 
the presidential alert?
    Ms. Fowlkes. Yes, unless they have come in and demonstrated 
a good-faith reason for not doing it and gotten a waiver from 
us, yes. All broadcasters have to comply with the Presidential 
EAS.
    Ms. Norton. All of them are prepared to do so, even those 
who are not participating in the EAS system at State level; is 
that what you are telling me?
    Ms. Fowlkes. I am sorry, I didn't hear the first part.
    Ms. Norton. Some do not participate. Can we at least 
stipulate that there are some broadcasters who do not 
participate in EAS?
    Ms. Fowlkes. In the Presidential EAS?
    Ms. Norton. No, I just said that you rarely get a 
Presidential EAS.
    Ms. Fowlkes. Right.
    Ms. Norton. This is FEMA we are talking about. Most of the 
alerts they have concern with and that the Congress has concern 
with, God help us, would be State-generated. Therefore, I am 
interested in knowing who doesn't participate and on what 
basis, since we know that large numbers do, on a voluntary 
basis. Are there large numbers who do not participate, and what 
kind of station would be most likely not to participate?
    Ms. Fowlkes. I am unaware, off the top of my head, to what 
extent. I know there are some broadcasters that may choose not 
to participate in transmitting State and local EAS alerts. I 
would have to get back to you on the reasons for that and what 
kind of station would likely not do----
    Ms. Norton. The reason I am interested, Ms. Fowlkes, is the 
only reason we are having this hearing is the proliferation of 
technology that puts a special burden on FEMA in the first 
place. Now, among those are all kinds of radio stations and TV, 
which is why FCC also now has to deal with all kinds of 
numerous, numerous kinds of outlets that just weren't even on a 
map 10 years ago.
    So once you get to State regulation, since we are talking 
about very rare, very rare Presidential--I mean, even FEMA has 
only Presidential for Louisiana.
    I can't imagine--and I hope there is no scenario where the 
President is going to be telling you whatever is.
    But what we are dealing with every day--tornados, 
hurricanes, floods, don't drive through the water and the 
lights on--the committee is interested in, given the 
proliferation of outlets, in knowing who is at liberty not to 
participate and in knowing whether or not there is any big 
thing to participate in.
    Is there some expense involved? Is there some cost to the 
broadcaster involved?
    Could you enlighten us on that?
    Ms. Fowlkes. Those specific questions I would have to get 
back to you on. Again----
    Ms. Norton. You don't know if there is----
    Ms. Fowlkes. Off the top of my head----
    Ms. Norton. Any cost? It comes through the State.
    Ms. Fowlkes. I don't know how much it is. Those are issues 
I would have to get back to you. Those specific questions I 
would ask to get back to you on.
    Ms. Norton. I am very concerned to know that. Would you get 
back to us also on the number of outlets that do not 
participate?
    You have no idea who is listening to these things. Some 
people are listening only to those things. We have such a niche 
society. It is very dangerous to have such a niche society.
    That is what we have. People look at only those TV stations 
that they think are for them. You know, they listen only to the 
music that they think is their thing. They don't even hear, 
never go to mainstream or maybe to what the average person goes 
to. They don't even go to the network news which used to 
universalize us all--we used to listen.
    That is gone, those ratings are down. The new generation 
doesn't listen to news at all, they only listen to iPods. I 
mean, the FCC is in the best position to understand this, that 
when you are talking so many outlets, so much technology you 
have--at least this Member is saying, where is the siren?
    Because I do not have confidence, particularly since the 
EAS doesn't have to be procured by everybody, that everybody is 
going to receive it through our fancy network with technology.
    I am very concerned, General Rainville, about what you have 
done. First of all, let me say this, before I ask you about 
this contractor, you apparently did sign a contract with a 
contractor pursuant to an interagency agreement with DOE.
    But first I have got to ask you this. You have testified 
here that there have been no forums. The only people who can 
tell us anything, as we upgrade the system, which we have 
stipulated, is largely for what happens in the States and 
localities, are located there.
    But my first question is how could you let a contract at 
all without hearing through forums or some other mechanism what 
the States and localities need?
    I mean, I was a little shaken to hear you say we do great 
outreach and people want to hear IPAWS. First of all, what is 
there to hear about? But, far beyond that, why would we risk 
investing in technology before listening to the people who long 
to help us upgrade, to know what to put money in, since there 
is not an infinite pot, and what not to. I don't understand on 
what basis you let a contract at all.
    How did you know what you were contracting for?
    General Rainville. One of our mandates is to assure that 
that Federal message can be delivered. So in our desire to 
update, upgrade technology into that Federal structure, we know 
that there is a lot of work that needs to be done. And it is 
that capable and modernized and Federal infrastructure that the 
States----
    Ms. Norton. By this, you mean what? Are you talking about 
some wires?
    General Rainville. I am talking about a systems 
architecture that would allow the transmission of modern 
emergency alerts and warnings. We need that from the Federal 
perspective for that presidential----
    Ms. Norton. Modern alerts and warnings refer to what?
    General Rainville. I am sorry?
    Ms. Norton. Modern alerts and warnings refers to what?
    General Rainville. It refers to a redundant, a resilient 
path for messages, any kinds of message. The current EAS 
message as we know it, also for ways for using technology that 
we can use that message through a digital means with digital 
EAS and through other methods, other devices to reach more 
people.
    As you said, the people are not at the radios now, they are 
off at work on their computer and their e-mail. We need to be 
able to reach them through as many ways as possible.
    Ms. Norton. We really need to know what kinds of ways 
wouldn't be worth money and what kinds of ways would.
    General Rainville. Right.
    Ms. Norton. You know, we just as a matter of general 
knowledge, know that cell phones are not very reliable in lots 
and lots and lots of places, including where we sit right now.
    In any case, even though there have been no forums, even 
though we are essentially at startup, even though you do let a 
contract to Sandia National Laboratories, as the IPAWS 
integrator--integrator of what, I can't imagine--anyway, 
somebody must have known, because they were supposed to 
deliver. They were supposed to deliver all these things you 
just talked about, IPAWS technology, work on standards 
development, work to ensure that all IPAWS systems receive 
certification and accreditation and support for the pilot.
    We understand that they got approximately $18 million and 
that you received almost no deliverables.
    Was this contract competitively bid?
    General Rainville. This was an interagency agreement that 
we already had with DOE, that we used to go to Sandia, who is, 
as you know one of the national labs.
    Ms. Norton. My question was very direct.
    General Rainville. I am sorry?
    Ms. Norton. My question was very direct. Was this contract 
bid by competition?
    General Rainville. Not to my knowledge. That was before I 
came to FEMA, but not to my knowledge, because it was already a 
standing IAA that we had with DOE and Sandia.
    Ms. Norton. Now, they took the money and ran, and you don't 
have much to show for it; is that true?
    General Rainville. Right now, the piece of their work that 
has not been delivered is under review at FEMA.
    Ms. Norton. Is what?
    General Rainville. Is under review at FEMA. We continue----
    Ms. Norton. Did they deliver anything, General Rainville?
    General Rainville. They delivered the work for the Gulf 
pilots of the--they subcontracted out with other vendors for 
the opt-in, the ETN, the American Sign Language alert for the 
deaf and hard-of-hearing.
    Ms. Norton. They subcontracted?
    General Rainville. They did. But they integrated and they 
ran the pilots for us. That is one thing they delivered. But 
they did not deliver, as was provided in the statement of work, 
the documents, the after-action reports, we don't have a draft. 
The standards and protocols have not been delivered, and they 
have not given us any of that documentation.
    So that is now----
    Ms. Norton. Have you received any of your funds back from 
Sandia?
    General Rainville. We have indicated to them that we expect 
$3 million to come back to us that they have not already used.
    Ms. Norton. They are going to keep the $18 million fully?
    General Rainville. Well, they are saying that they have 
used that money to do whatever they have done to this point.
    Ms. Norton. Do you believe they can do the job, IPAWS' job? 
They got the pilot from which you were supposed to learn to do 
it for the country. Can they do the job? If not, what are you 
going to do about getting somebody who can?
    General Rainville. What we are doing now is we are 
reviewing this at FEMA for what we need to do as far as Sandia 
regarding--but we are also now working with DHS Science and 
Technology to help us further develop some of these systems--
and that we have since stood up a Program Management Office for 
IPAWS, as you know at FEMA, who is doing some of the 
architecture work themselves.
    So we have looked at other means of accomplishing this 
work, because we have got to push on with IPAWS. This, frankly, 
has really delayed us.
    So we are--I will leave it to FEMA to learn from these----
    Ms. Norton. Yes, because we learn from these pilots. I 
certainly believe you could do some of this work 
simultaneously. I am back to, though--really grave misgivings 
about the stories of Federal and, for that matter, local 
spending on whole computer systems as one example, that just, 
you know, I am sorry, this thing doesn't work for us.
    After the government has spent all this money, it seems to 
me we may be going down this road again. Some of this may not 
be preventable, because the way technology moves quickly, the 
way we have to try to figure out all the tasks that we really 
want the technology to do, and this one is truly complex.
    So the Subcommittee would have huge misgivings about your 
putting more money out there without these forums. We don't 
even think you know what you are talking about, frankly. We 
only know what people can tell us about how the EAS has worked. 
We only know because you are going to have limited funds. We 
only have, what, in our bill, $25 million, $37 for FY 2008. You 
are not going to have a lot of money. So you are not going to 
be able to do a Cadillac in the first place.
    Without systemic input from the field, I don't know how in 
the world a contractor could proceed. There may be some parts 
of this that are so clearly outdated that any system would need 
some of that. But I am even leery about that, given the--
"horrible" is the only word for it--ask the IRS, who spent 
billions of dollars on computers that don't do anything now.
    So when somebody tells me what I am doing is giving the 
contractors and people to do some technology that has to do 
with very complicated upgrading of other--of their technology 
to deal with every--which kind, technology that people out 
there are using, your task is so complex that I begin to wonder 
whether it can be done at all, without at least warning people, 
hey, you are not going to be able to get this on the cell 
phone.
    Guess what? It is so expensive and so few of you--I am just 
giving you an example. It might be nice that you all carry 
this, but the EAS system can't come into everybody's iPod. 
Sorry.
    But if we tell you this up front, at least you know. But, 
of course, if you put out a contract and said, hey, what we are 
going to do is get you wherever you are without, in fact, doing 
what I regard as the most complicated groundwork to figure this 
out. How do you figure it out? I can't tell you, but I will 
tell you one thing. You don't know something, you better ask 
somebody.
    The experts are located where they have hurricanes, where 
they have tornados, where they have had flash floods. I am very 
concerned. This Subcommittee is very concerned that the New 
York example may be the only way to go. New York had 9/11 so 
they are doing what they have to do, not waiting for you or 
anybody else.
    There are people who have had natural disasters, who see 
the Federal Government as moving so slow, see you with a failed 
contract here, have seen no forum systematically in their area 
and figure out, oh, shucks we might just as well do this. It is 
very, very concerning, I must say to you.
    If a contract is left to somebody else, submit that 
contract before it is finalized to this Committee, so at least 
we recognize the administrative agency that does it, so that we 
can at least understand what you are contracting for. As I have 
said, you have got to set up these forums immediately.
    I don't have other questions. We have given you a lot of 
homework. I am much more concerned to get you back to FEMA to 
start you on that homework.
    Thank you both for really important testimony about a 
subject of vast importance, not only to our Committee and 
Subcommittee, but to the people of the United States of 
America.
    If there are no other questions--are there other questions? 
Then we will call the next witnesses. Panel III. Some of 
General Rainville's staff might want to talk with some of the 
staff of Panel III about who to go to set up forums.
    Panel III is Christopher Guttman-McCabe, Vice President of 
Regulatory Affairs, CTIA, The Wireless Association; Larry 
Gispert, President of the International Association of 
Emergency Managers and Director of the Department of Emergency 
Management, Hillsborough County, Florida; and Michael Womack, 
Region IV Vice President and member of the Board of Directors, 
National Emergency Managers Association, and Director of the 
Mississippi State Emergency Management Agency.
    I am pleased to hear from all of you.

   TESTIMONY OF CHRISTOPHER GUTTMAN-McCABE, VICE PRESIDENT, 
   REGULATORY AFFAIRS, CTIA, THE WIRELESS ASSOCIATION; LARRY 
  GISPERT, PRESIDENT, INTERNATIONAL ASSOCIATION OF EMERGENCY 
  MANAGERS; AND DIRECTOR, DEPARTMENT OF EMERGENCY MANAGEMENT, 
  HILLSBOROUGH COUNTY, FLORIDA; AND MICHAEL WOMACK, REGION IV 
 VICE PRESIDENT AND MEMBER OF THE BOARD OF DIRECTORS, NATIONAL 
EMERGENCY MANAGERS ASSOCIATION; AND DIRECTOR, MISSISSIPPI STATE 
                  EMERGENCY MANAGEMENT AGENCY

    Ms. Norton. I would like to begin with the emergency 
management. Mr. Gispert, let's hear from you first.
    Mr. Gispert. Good morning/good afternoon.
    Chairwoman Norton, Ranking Member Graves and distinguished 
Members of the Subcommittee, thank you for allowing me the 
opportunity to provide testimony on alert and warning from a 
local perspective.
    I am Larry Gispert, and I serve Hillsborough County on the 
West Coast of Florida as Director of Emergency Management, a 
position I have held for 15 of my 28 years in the career field.
    I am currently serving as the President of the 
International Association of Emergency Managers, and I have 
also served as the President of Florida Emergency Preparedness 
Association.
    IAEM has over 4,000 members in the United States and in 
other countries. Most of our members are U.S. city and county 
emergency managers who perform the crucial function of 
coordinating and integrating the emergency management efforts 
at the local level. Our members represent both urban and rural 
areas throughout the country.
    Former House Speaker Tip O'Neill is credited with observing 
that "all politics are local." I would like to modify those 
remarks by saying that like politics, all disasters are local.
    One of most basic responsibilities of local governments and 
their elected officials is to provide a mechanism to alert and 
warn citizens of pending danger.
    On the west coast of Florida we have over 90 severe weather 
days a year, with events like winds in excess of 60 miles per 
hour, driving rain, pounding hail and occasionally tornados. 
These events normally occur unannounced and frequently at 
night.
    Since 1998, Florida has had three major tornado outbreaks 
which have killed a total of 62 people and destroyed or damaged 
over 1,000 homes. Florida utilizes the emergency alert system 
which captures the audio on all television, radio and cable 
systems that permit us to issue an emergency message.
    We also depend heavily on the NOAA weather radio system to 
issue warnings to those individuals who have purchased such 
radios. Many counties have access to a computerized telephone 
notification system that dials multiple telephone numbers and 
delivers a prerecorded message. It has been our experience that 
these systems are good for warning a specific neighborhood of 
an emergency, but they become problematic in communitywide 
notifications because a phone switching network quickly 
overloads. We believe we only reach about 50 percent of our 
citizens by utilizing all of the existing systems.
    Another problem facing local governments is the ability to 
warn special populations. For example, visually impaired, 
hearing impaired, those with impaired mental skills, and, as 
well as the nonEnglish speaking population. None of the current 
warning systems makes this type of warning easy, and, in most 
cases, it is impossible to reach these types of citizens.
    There have been proposals of utilizing SMS text messaging 
over cell phones as a means of warning. This method shares some 
of the drawbacks of the other systems. SMS message is extensive 
and can be delayed like the automated phone dialers, due to 
similar switching network problems. Also, most text message 
systems require the individual citizen to opt-in to receive the 
alerts.
    This brings us to the proposed Integrated Public Alert and 
Warning System, IPAWS. This system purports to be an integrated 
activation of multiple alerting and warning systems, each 
utilizing the common alerting protocol, CAP. If this is true, 
then our ability to warn a larger percentage of our vulnerable 
population will be realized and more lives will be saved.
    However, systems and technology are not the complete 
answer, coupled with an enhanced expansion and a greater 
support of our existing public education programs on what to do 
when the warning is received. As well as giving hundreds of 
public presentations a year, we work closely with the local 
media to produce video shows and written pamphlets that also 
convey the message of individual citizen action.
    The most technologically sophisticated warning system 
possible will fail if the person receiving the warning does not 
know what action to take to save their lives. This lifesaving 
information has to be presented and repeated over and over and 
over until it is absorbed and then also repeated at the time of 
the warning.
    IAEM supports the concept of an improved alert and warning 
system if it is designed to support State and local governments 
in executing their primary responsibility for warning the 
public. We do not want to see a system which adds more time to 
the process of issuing warnings. We do want the system to reach 
a large percentage of the affected population. It must be easy 
to use, reasonably priced to maintain and operate. The system 
must also enable us to reach those special populations.
    Finally, we need to continue and increase our longstanding 
education systems for citizens, so they have the knowledge to 
do the right thing at the right time when danger is imminent.
    Thank you.
    Ms. Norton. Mr. Womack.
    Mr. Womack. Thank you, Madam Chairwoman Norton and Ranking 
Member Graves and other Members of the Committee for having me 
here.
    I am speaking on behalf of the National Emergency 
Management Association, NEMA, that is made up of State 
directors of emergency management. I am also going to speak on 
the State of Mississippi's experience with the IPAWS' pilot 
program.
    There are several key areas that I will discuss. The first 
is that I believe and NEMA believes that the current 
organizational structure for public alert and warning for the 
most part works well, but more coordination on the Federal 
level is necessary.
    Second, that Mississippi's experience with the Integrated 
Public Alert and Warning System, IPAWS, was, again for the most 
part, good; but then more Federal support is needed to complete 
the pilot.
    Third, that legislation to implement the Executive Order 
and to provide statutory authority for the current practice 
could be helpful in moving the Nation's efforts forward, 
provided there is more coordination with the State and local 
government stakeholders as the system is developed.
    I am quite lucky at this point because I am going to be 
able to deviate from a lot of my written remarks because they 
have been covered by Captain Judkins and Director Gispert. I 
would say they are right on target, with almost everything they 
have said about the variety of systems that are out there, the 
fact that no one system works very well.
    I really want to emphasize this education and public 
preparedness part of it.
    Mr. Womack. It is absolutely critical. We have a lot of 
success in Mississippi working with the National Weather 
Service, local emergency management directors and other 
responders in teaching the public what a watch is and what a 
warning is. And one of the discussions that you had earlier 
today was about the amount of time you have for a tornado 
warning. The watch is often hours in advance, and some of the 
warnings can be 10 or 15 minutes in advance. So it is a big 
part of this public education.
    As with other States, my State uses a variety of 
technologies. We use sirens. We use outdoor alert and warning 
systems, reverse 911, blast e-mails and some text messages, as 
well as some new technologies.
    The current organizational structure for alert and warning 
systems in the Federal Government works reasonably well, and 
there is no reason for radical change. The National Weather 
Service's NOAA radio is an excellent tool, and it's used very 
effectively in my State and other States. The Federal Emergency 
Management Agency, in our opinion, in NEMA's opinion, is the 
right place for IPAWS; and we support its efforts for trying to 
pull this together.
    As we talked--as this Committee has talked earlier, this is 
an extremely complex set of issues. The term "patchwork" was 
used a little bit earlier. Without taking responsibility and 
authority away from State and local government, you are going 
to have some patchwork.
    As far as the need for the Presidential message, we fully 
support that. But understand that 99.9 percent of the messaging 
will come from State and local government, primarily from 
local.
    In talking about the IPAWS and its work on the Mississippi 
gulf coast, we used my State as the vendor that provided most 
of our technological services. The Deaf Link portion of the 
pilot worked very well. The reverse 911 system had a lot of 
challenges but ultimately was successful. And there is nothing 
like having a voice that people understand and hear frequently 
that they trust. Governor Barbour recorded messages that we 
were able to send out under IPAWS having to do with hurricane 
preparedness and hurricane warnings, and it was very effective.
    Even though it was effective, we are only looking at 
approximately 42 percent of the calls were live answers, 32 
percent of the calls were voice answering machines, and 26 
percent were unsuccessful, and they were only landline calls. A 
massive volume of calls, 221,000 calls, were made in one of our 
tests.
    Having the other programs under IPAWS were a mixed success. 
The biggest challenges we had was, just as we were working 
through all of the problems in the new systems, then the 
program was effectively terminated. So it needs to be funded, 
and it needs to be on a more lengthy basis.
    Last month, Ranking Member Graves introduced House Bill 
6038 to direct the President to modernize the integrated public 
alert and warning system. We feel that this is a good step. We 
feel it will further strengthen the role of FEMA and the need 
for developing a nationwide system.
    In conclusion, we appreciate Congress's increased attention 
and focus on disaster and alert warning systems; and thank you 
on behalf of NEMA.
    Ms. Norton. Thank you, Mr. Womack.
    Mr. Guttman-McCabe.
    Mr. Guttman-McCabe. Thank you and good afternoon, 
Chairwoman Norton and Ranking Member Graves.
    I am Christopher Guttman-McCabe, Vice President for 
Regulatory Affairs at CTIA - The Wireless Association. CTIA is 
the international organization representing all sectors of the 
wireless industry: carriers, manufacturers, content and data 
providers. I am privileged to appear before you today to 
present CTIA's views on the important topic of emergency 
alerts. My comments today focus on the wireless industry's 
efforts to develop an alerting service through the WARN Act and 
how these efforts work with the goals set out in H.R. 6038.
    This is an exciting time. The wireless industry as well as 
Federal, State and local governments recognize the importance 
of timely emergency alerts delivered to as wide a group as 
possible. CTIA and the industry understand the role wireless 
can play in consumer safety. The industry already delivers over 
100,000 e-911 calls each day.
    The industry was proud to support the Warning Alert and 
Response Network Act. The key element of that Act was a true 
partnership with the Congress, the FCC, government agencies and 
industry.
    The wireless industry has in its recent past some examples 
of what can happen when government and industry partner 
voluntarily in the creation of a new service. Wireless Priority 
Service is a program through the Department of Homeland 
Security that utilizes wireless networks to deliver priority 
access to key government officials during times of crisis. The 
Federal Government worked with industry to develop the 
requirements for the service but did not mandate a technical 
solution. The service was deployed and developed quickly with 
key input from the technology experts resulting in no 
challenges, no appeals and no delays.
    CTIA and the industry also launched a voluntary wireless 
AMBER Alert service in partnership with the Department of 
Justice and National Center for Missing and Exploited Children. 
Potentially life-saving messages are delivered to wireless 
subscribers who opt in to the offering. And in the emergency 
alerting context, CTIA and the industry have coordinated 
efforts with DHS, FEMA and the FCC through various pilot 
programs.
    Going forward, CTIA and the industry believe that alerts 
should ultimately be transmitted on multiple retransmission 
media. While wireless can and should be a component of any 
alerting service, Madam Chair, as you have stated, a complete 
public alert and warning system should explore the full range 
of redirected communications, media and devices, without 
limiting itself to the wireline and wireless phone networks, 
radio, television, cable or satellite.
    Congress got it right when it established the framework for 
creating and deploying wireless emergency alerts. The WARN Act, 
enacted on October 13, 2006, properly balances wireless 
carriers' capabilities with the requirements of an effective 
alerting service. Congress's plan is working as scripted.
    The FCC established an advisory committee comprised of more 
than 40 individuals representing Federal, State, local and 
tribal governments, communications providers, vendors, third-
party service bureaus, broadcasters, consumers groups, 
disability groups and technical experts, among others. I served 
as one of the wireless industry's representatives to that 
committee. Over 11 months, we generated over 600 documents, 
held hundreds of meetings, spent thousands of man hours to 
develop a thorough, workable proposal.
    On April 9 of this year, the FCC issued its First Report 
and Order largely adopting the recommendations of the 
committee. Among other things, the Order set forth the alerting 
service architecture proposed and concluded that a Federal 
Government entity should aggregate, authenticate and transmit 
alerts to the carriers.
    Just last week, FEMA announced its intention to fulfill 
this important role. So while the FCC and the WARN Act 
committee have established the commercial alert service 
architecture and are working on technical standards and 
procedures, FEMA will develop standards and protocols to 
fulfill its role as the aggregator and issue technical 
specifications governing the alert gateway. We look forward to 
working with them cooperatively on that process.
    The FCC also required that participating providers must 
transmit three classes of alerts: Presidential, imminent threat 
and amber alerts; must target those alerts geographically; and 
must include an audio attention signal and vibration cadence 
for subscribers with disabilities and elderly.
    The efforts under way with the FCC and industry to develop 
and deploy the commercial mobile alert system, with the strong 
likelihood of FEMA's involvement as the alert aggregator, 
complement the goals established in H.R. 6038. For example, the 
WARN Act will help, quote, government reach the broadest 
portion of the affected population as possible, end quote, as 
well as ensure broad dissemination of Presidential level 
alerts, two of the key goals of H.R. 6038.
    While the industry is pursuing accomplishing many of these 
goals with the FCC and, ultimately, FEMA under the framework of 
the WARN Act, CTIA cautions against Congress and agencies 
taking any action that could disrupt significant efforts and 
progress to date.
    In conclusion, a government-industry partnership, as seen 
in the development of Wireless Priority Service and wireless 
AMBER Alerts, and as being realized right now under the WARN 
Act process, will facilitate development and deployment of a 
comprehensive, modern wireless alert system. CTIA and the 
industry look forward to continuing to work with government in 
this effort.
    Thank you again for this opportunity to highlight our work 
to enhance the Nation's public alert and warning capabilities, 
and I look forward to answering any of your questions. Thank 
you.
    Ms. Norton. Well, what impressed me about the testimony of 
all three of you, you emphasize that you have got to have a 
system that is simple enough for people to understand and that 
works. I am very leery of all this complexity out there in 
trying to meet all of the forms of media and deal with 
everything and say now we have this system and everybody really 
thinks they really do have one.
    I note in the FCC testimony, the advisory committee I think 
to which you allude, Mr. Guttman-McCabe----
    Mr. Guttman-McCabe. Yes.
    Ms. Norton. --and I see on there, it seems to me, just 
looking down the list, virtually all the actors, that this is 
an FCC group that one might expect to be on. And it includes 
EMS and State officials, public safety officials and the rest. 
Are you, Mr. Gispert and Mr. Womack, familiar with this, the 
advisory committee for the mobile alert--the so-called Mobile 
Alert Advisory Committee?
    Mr. Gispert. Madam Chairwoman, yes, some of our members 
have participated as representatives of that committee.
    Ms. Norton. I am just going to--because I still see--and I 
appreciate her staying--that Ms. Rainville is here. It does 
seem that your task may be simplified, rather than duplicating. 
Maybe there are some differences that would need to occur. But 
it looks like if we did this in every State you would have all 
the stakeholders ready-made, with an understanding of why it is 
needed and with the field experience and the communications 
experience needed to put it together. So this might simplify 
the notion of getting it.
    But I am very, very concerned about the input of the field 
and of people who broadcast in the field, particularly in light 
of--I guess it was Mr. Gispert's testimony. Maybe Mr. Womack 
that had the statistics. Are we dependent on the States? We are 
not talking about anything that happens from Washington.
    Mr. Gispert. Ma'am, can I correct the record, please?
    Ms. Norton. Yes.
    Mr. Gispert. Ninety percent of the alerts and warnings are 
issued by local governments. The State doesn't issue many, many 
alerts and warnings. It is mostly at the local level, county 
and city level.
    Ms. Norton. But they do it.
    Mr. Womack. Yes, ma'am. The statistics that I gave out had 
to do just with the reverse 911 system.
    Ms. Norton. I see.
    Mr. Womack. It demonstrates that the reverse 911 system can 
be effective for maybe between 40 and 60 percent of the 
population. And that is it. And that is why you have to have 
about four or five or six different systems.
    And I totally agree with you that low tech needs to be part 
of the solution. There are places where warning sirens are very 
effective, in college settings, in places where there are large 
concentrations of populations. But I just don't think that we 
can go in and mandate anywhere that says this is the system 
that needs to work for you.
    I would like to compliment FEMA's--their vendors that 
worked with us trying to fix the systems that they tried to 
field with us. Now, I don't know that I would have preferred to 
have more input on the front end of it, but they did try to 
come in and fix the systems as best they could until they ran 
out of time or budget or whichever it was. So there was a lot 
of effort in trying to get the systems up and operational.
    Ms. Norton. Mr. Guttman-McCabe, you see, I bring some 
skepticism about trying--even trying to put all the diverse 
media and to therefore say to the public, hey, look, all of 
y'all are in it now. Because when somebody's cell phone doesn't 
work when there is some disaster, they will say, well, you 
said. We know that, for example, the Virginia Tech shooting 
taught us that closed communities like campuses, which are 
almost by definition high tech, can use text messaging fairly 
well.
    But as I look down the road and consider that--how 
expensive this will be even to do it simply, I am not sure why 
I would want to include text messaging for the Nation, the 
capacity to say to the States, regardless of where it is, 
people should be able to use text messaging and should be able 
to use cell phones. I can't imagine a cell phone that would 
work 100 percent of the time. If it does, then they will tell 
me it can cause cancer or whatever it is.
    The point is, technology doesn't pretend to be perfect; and 
the one thing that the Federal Government is going to have to 
do and the States are going to have to do is to try to say what 
must be included and what does not have to be included.
    Mr. Guttman-McCabe. Well, Madam Chair, if I may, I think 
Congress did a very good job in the WARN Act of giving 
sufficient detail with not being too prescriptive. So I think 
the rationale in the Act was that 255, 265 million Americans 
have cell phones. So this is a good outlet. A lot of people 
take----
    Ms. Norton. That tells me nothing.
    Mr. Guttman-McCabe. So I am saying----
    Ms. Norton. That tells me absolutely--there is going to be 
twice that, you know, in just a few years. That tells me 
nothing. What I do know is those things don't always work. And 
to spend a whole lot of money where half of them may be down--
look, it could be off, Mr. Guttman. Well, I keep mine off. I 
don't want to be bothered.
    Mr. Guttman-McCabe. Yes, ma'am. What I was going to say is 
that wireless needs to be a piece or a component of the 
program.
    Ms. Norton. Why? Why do cell phones need to be a key 
component of the program? I am telling you, if there is a 
finite amount of money, why do cell phones, which may or may 
not work, have to be a key component of the program? Mr. 
Gispert.
    Mr. Gispert. Madam Chairwoman, as a local practitioner for 
28 years--and I have 1.2 million people who depend on me to get 
alerts and warnings--I carry what is called an alert and 
warning toolkit. It has multiple systems in it.
    My community is very diverse. We go all the way from the 
newly born all the way to the nearly dead. And I have to 
communicate across that entire diverse community. And I have to 
use every tool in my toolkit.
    Cell phones could be a tool. Sirens can be a tool. 
Telephone alerting systems can be a tool. The problem that I 
have is, I don't have a single button, one button to activate 
all the systems. So I have to sequentially pick the tool out of 
the toolkit, alert that segment of the population, pick another 
tool, trip it off and alert another segment. If I could push 
one button and alert a maximum number of citizens, it would 
greatly help me.
    Please, while I have the microphone--the absolute biggest 
problem is our public does not want to be warned. They go 
through life--their life is so complex. They have answering 
machines on their telephones. Their cell phones are either on 
or off. For every system that you have the option to activate, 
only 30 percent of the people choose to opt in. The other 72 
percent of the people choose not to get the warning.
    Ms. Norton. Mr. Womack had some actual figures that made 
all this talk about----
    Mr. Womack. Well, it needs to be part of the solution. If 
we get 30 or 40 percent with the sirens, because we don't have 
enough money to cover 100 percent of the Nation with sirens, 
and we get 20 or 30 percent with landlines, and we get another 
20 or 30 percent with text messaging----
    And one good thing about text messaging is, it takes very 
little bandwidth compared to voice. So you can push out 
millions of messages compared to the amount of time it takes 
for voice. Those two--those, you know, 50,000 70,000 calls, two 
to three hours to push them out. It has nothing to do with the 
vendor. It has to do with the bandwidth of the cell towers. It 
has to do with how many calls you can get through switches 
locally. So there is an advantage to it. I would think text 
messaging would be a cheap--relatively cheap alternative 
compared to voice because it takes up so little bandwidth. This 
is the expert on it.
    Mr. Guttman-McCabe. And that is correct.
    Ms. Norton. Can you be alerted to text messaging in the 
same way you are alerted to the phone ringing?
    Mr. Guttman-McCabe. You can. And the idea behind the WARN 
Act and the technical specifications is it is similar to text 
messaging, but it doesn't have an impact on the network. So you 
send out one message. It almost acts like a broadcast, sort of 
concentric circles; and everyone in the area, whether they are 
roaming into the area or they are generally there, gets the 
message. The message is simple and straightforward. It is 90 
characters. It is easy to read. And I understand your concern, 
Madam Chair, but I would just say, wireless makes sense to have 
it be a component of it.
    On our side of the equation, our CEOs have committed to 
doing the upgrades and making the upgrades available. On the 
committee, we had representatives from the five largest 
carriers, their senior technical person, their chief technical 
officer who sat on the committee and put in the time to be part 
of this to be a component. And I think Congress looked at 
wireless and said, let's--you know, IPAWS is a broad-reaching 
effort. Let's focus on one area that is growing. Everyone seems 
to be having a cell phone. Let's focus on that. Let's focus on 
that.
    So you had earlier mentioned concerns regarding whether 
there was a clear path or guidelines. Congress gave the 
wireless industry and the FCC a clear path and guidelines, and 
we are hitting it. So the reason why wireless should be 
involved, I would argue, is because Congress directed to us to, 
and we have honored that----
    Ms. Norton. We are not saying wireless should not be 
involved. The question is, if we have a universal system, it 
seems to me we have got to warn people in advance which systems 
we are using there. If we put out this notion that we have 
wireless, we have reverse 911, we don't have any such thing. We 
have whatever the local community can do. The capability to do 
it is quite apart from what a universal system is.
    Look, EAS--and, you know, obviously, I like something as 
simple as that. Unfortunately, or perhaps fortunately, the 
world is not simple anymore. And we do want to communicate to 
people. And if people--I can't even get people often to pick up 
their vibrations. And the layering, the layering might well do 
it. But if we don't have guidance about what kind of layering, 
that we don't tell people, don't depend on text messaging, you 
who are infatuated with that, and this community, the major 
ways we have to notify you are--here I get back to Mr. Gispert 
and public education.
    Mr. Womack. Can I address the EAS question? It works I 
think very well in Mississippi, and I think it works very well 
in other States as well. And it is because we have the National 
Weather Service working with local emergency management 
directors who work with their responder community.
    Now I give you an example just this past year. The Weather 
Service--the morning, before the storm system came in in the 
afternoon--did a conference call with all local directors in 
the impacted area saying you are at a high risk for tornadoes. 
High risk. You need to make sure that everyone is notified of 
this.
    So the local emergency management director in the county 
called up all of the responders and called up all of the 
schools and called up other people that needed to know this 
information and said, be ready. This could happen between 2:00 
and 4:00. So when the warnings actually came through, they had 
already thought through what are we going to do? A school was 
hit, and not one child was injured. But that is why it is not 
just about warning systems. EAS works well.
    The other point I would like to make about it is is because 
of its work with public area radio and commercial radio, not 
all of them, but if people want to get the warnings, they can. 
That is really what it comes down to.
    Mr. Guttman-McCabe. And one thing, if you don't mind, Madam 
Chair, that I would add is Mr. Gispert and others have talked 
about education on the consumer side of the equation. I think 
as we expand this service into other mediums like wireless, 
there needs also to be some education on the alert originator 
side of the equation.
    I was one of those 30 percent that actually subscribed to 
Arlington Alerts in Arlington, Virginia. And we have looked 
at--I have sort of cataloged my last 100 alerts from Arlington 
County. And if you will indulge me just for a minute, I am just 
going to give you the re: line in the e-mail that came to my 
wireless phone, the last 10 or so: military aircraft flyover, 
traffic alert, rolling thunder, ceremonial cannon firing, 
military aircraft flyover, rabid fox in the area, water main 
break, Comcast cable outage, flash flood warning. So it isn't 
until you get to about the 11th alert that actually there is 
one that is a flash flood warning. If you looked at the 
statistic in this packet, you will see about 50 in there. I 
would say two would qualify by these gentlemen as actual 
emergency alerts.
    Ms. Norton. When people know that that is what comes 
forward, lots of people are not going to turn on their phone at 
all.
    Mr. Guttman-McCabe. We call it the car alarm syndrome. We 
fear the car alarm syndrome. That alarms now just go off so 
often that people don't bat an eye.
    Ms. Norton. The great thing about EAS is when people see 
that across their television, they look. Because, first of all, 
you have educated the public because it is simple. They know 
that it could be the real thing, and they are grateful it is 
not. So I am--you know, technology's great advantage is that it 
allows us to do a lot of things with it. And I must say I am 
looking for something that, once you hear it, once you see it, 
you know that it means you have got to pay attention to it.
    And, yes, public education is part of this. I am not sure 
where people would get this public education. I know how they 
got the EAS. They just got it through it coming on, telling you 
this is a test, and that is how people got to know it. They 
didn't have to make any particular effort.
    Mr. Womack. But if you fund emergency management at the 
local level and you fund National Weather Service at the local 
level, then they can be out there doing your education. Because 
we are not going to be able to do it at the State or national 
level. We are just simply not going to be able to do it.
    The education has got to come from the local level. They 
can teach people what a watch means versus what a warning 
means. And they can teach people----
    Ms. Norton. Who can teach them?
    Mr. Womack. The local emergency management director, the 
local National Weather Service representative. If those are 
funded--you know, there is this tendency to say we can 
consolidate National Weather Service offices or we don't need 
to fund every county level emergency management director. That 
is not the case in emergency preparedness. You need those 
people on the ground who are out there educating the public.
    Ms. Norton. You see, my presumption is entirely on the 
ground. That is why I was at the forums. I don't think they 
should be doing another thing with IPAWS.
    Yes, Mr. Gispert.
    Mr. Gispert. Madam Chairwoman, my emergency management 
office once again is responsible for 1.2 million people. We do 
over 200 public presentations a year. We do it to civic 
associations, business groups, homeowners associations. And as 
a part of those presentations, we tell them about alert and 
warning, we tell them what to do when the EAS trips off or when 
the NOAA weather trips off, and we continue to tell them, we 
continue to tell them, we continue to tell them. They need to 
be reemphasized. Because when it actually happens, people 
suddenly they get a little addled and they forget what they are 
supposed to do.
    The biggest problem with sirens is you can use sirens for 
one and only one thing. You can train the person. Hear the 
siren, do this. If you tell the people, if you hear the siren, 
you need to do one of five things, you are in trouble.
    So, once again, whatever diverse--IPAWS, EAS, whatever 
system the Federal Government approves of, the absolute primary 
objective should be educate our public. Educate our public. 
Here is what you do when you hear the warning. And then it will 
be successful. Otherwise, you will spend millions of dollars on 
systems to trip and people say, what do I do? We have to 
educate the public, and that is done at the local level.
    Ms. Norton. Well, I couldn't agree more, Mr. Gispert; and I 
must say that the notion of the kind of outreach and repetitive 
work you are doing is the best way to do it. But you know what? 
I don't think people go to--I don't think people are very 
meeting-oriented these days. The reason the EAS works is--guess 
what? I am looking at something I want to see, and you 
interrupt something that I wanted to see and, therefore, I got 
educated.
    I just think we have got to be very sophisticated about how 
diversified we become and how busy everybody is. And as we 
contemplate this network, sure, allow everyone to do 
everything. Because they are going to pay for it. The Federal 
Government is certainly not going to do it. I love your low 
tech way of doing it, keep repeating it over and over again.
    Mr. Womack. Madam Chairwoman----
    Ms. Norton. But I must say that I think to the extent that 
the media can be involved we are going to be ahead of the game 
because that is what has gotten us the EAS effectiveness in the 
first place.
    Mr. Womack. That was exactly the comment I was going to 
have. When directors of emergency management or mayors or 
sheriffs or certainly the governor, when they go on TV and 
radio and they talk about preparedness and they talk about the 
meaning of these systems, that might encourage some people to 
go a step further and go to their local emergency management 
director or some of these meetings.
    It is more than just using the media, put out the messages 
with electronic methods. It is also using the media effectively 
as elected and appointed leaders. That is one thing I think 
Governor Barbour I think did very effectively both during 
Katrina and in the hurricane seasons we have had since, getting 
out that message of individual preparedness.
    Ms. Norton. While I appreciate that comment and I agree 
with it, what I am leery of is developing a very simple way to 
educate the public and to educate the majority of the public. 
You know, who knows how to do that best? Marketing people. We 
ought to put some of them on this committee. Simple, direct, 
because that is how they get their messages across all too 
effectively.
    So I am asking then that the WARN Act forum that--do you 
think that would be an important way already existing on the 
ground, just for the record, to implement the national--the 
alert and warning system?
    Mr. Guttman-McCabe. I would argue----
    Ms. Norton. Using the forum and that process or one similar 
to that?
    Mr. Guttman-McCabe. I would say similar if not very 
similar. It is a very good model because it goes across--
broadcasters were involved as long as--as well as wireless and 
local and, you know, a good cross representation.
    Ms. Norton. So we don't have to kind of rethink and start 
from ground zero.
    Mr. Guttman-McCabe. I don't think it has to mirror exactly 
that exact----
    Ms. Norton. Do you have ideas for changes you would make in 
it?
    Mr. Guttman-McCabe. Well, you know, this was weighted a 
little bit towards the wireless perspective because the Act is 
specific to wireless.
    Ms. Norton. Yeah. Because of FCC, yeah.
    Mr. Guttman-McCabe. So I would say--you know----
    Ms. Norton. It is a start right there. Because those people 
are already familiar, they have already been working through 
the FCC mechanism. I am sorry?
    Mr. Womack. I would just say that don't get started in a 
program and then, either for funding or time, just suddenly 
say, okay, we are going to stop it and then we are going to do 
go another direction.
    Ms. Norton. Yeah. This happened to you, apparently.
    Mr. Womack. It did. Governor Barbour very much believes in 
the----
    Ms. Norton. What stopped?
    Mr. Womack. In December, I believe it was the funding ran 
out on the pilot or whatever. But in December we were told that 
it would not be funded again. That, if we wanted to, we could 
try to contract for the services ourselves. All work on fixing 
the, quote, unquote, bugs--and they could have been bugs in our 
agency, that we just weren't using it properly--all of that 
stopped, effectively; and we were basically told if we wanted 
to use our own State money or use other homeland security grant 
funding to pay for these services, we could do so.
    There are only two problems with that: We are required 
under State law to go out for competitive bid processes. So it 
may be different vendors that we would have to work with if we 
had to contract for services through the State.
    The second thing is this: If you are not a high 
metropolitan area State population wise, you know, like New 
York or D.C. or someplace, your homeland security grant funding 
has been reduced tremendously based on threat. Now I say that 
we are not looking at the threat of hurricanes and earthquakes 
when we are doing our funding, but that is another issue.
    Ms. Norton. Very important issue. You all need to say it 
over and over again. After 9/11, the emphasis on a terrorist 
attack has been very detrimental to emergency management in the 
United States as if what you really need to prepare for is al 
Qaeda. Of course we need to do that. We have a whole agency to 
do that, and we funded people as if that is what the funding 
was for in the early days after 9/11. And here we--this 
Subcommittee and this Full Committee have long tried to make 
everyone understand that even with the Homeland Security 
Committee, on which I serve by the way, we are talking about 
all hazards, and 99 percent of those are the hazards that you 
know most about.
    Mr. Womack. I think there has got to be a balanced 
approach. NEMA's position is there has got to be a balanced 
approach. We have to have funding for terrorism prevention and 
response, but we have got to make sure that we keep funding for 
natural hazards.
    Ms. Norton. What services were you funded for that you 
don't believe you should--you could keep going?
    Mr. Womack. We are trying to find State dollars right now 
to procure the reverse 911 system again, plus some of the other 
things like the hearing impaired and some of the other 
services. We need the services provided by IPAWS. It is just 
now we either are going to have to take homeland security 
grants that were----
    Ms. Norton. IPAWS, you need the services?
    Mr. Womack. We need the services provided by IPAWS.
    Ms. Norton. Why?
    Mr. Womack. Because, as I said, if we get 40 to 60 percent 
of the population with reverse 911, if we get another 20 or 30 
percent with the digital EAS or whatever other messages, all of 
these services get a segment of the population.
    Ms. Norton. Mr. Womack, Mr. Gispert and Mr. Guttman-McCabe, 
you are going to find the problem Mr. Womack is talking about 
throughout the country. Guess what? We are not going to give 
you money. You have got to understand and this is why I keep--
you are going to work within--and that is why these committees 
are so important--within a crucible of limited funding. Choices 
are going to have to be made.
    I know you can reach people if you had X, Y. You are not 
going to get it from us. If your taxpayers have it, that is 
where it is going to come from. Ultimately, we think most 
jurisdictions are going to say, how much layering can we 
afford?
    The Federal Government has grants. Where is--and, look, we 
also have a deficit that is so large that we have what we call 
PAYGO, when you can't go and put anything on the floor unless 
it is already paid for, which is going to continue to be the 
constraint because of the war, because of the tax cuts, because 
the money isn't there. And the deficit is sky high.
    So all this talk about layering and we can meet this, this 
number, that number and the other number, we need a committee 
to sit down and make sure everybody knows that the all-purpose 
layering will be possible if your taxpayers are willing to pay 
for it. And then you take the rap. Because that is what you are 
going to have to tell them.
    Or what I bet most people are going to do is to say we are 
in the EAS system. It does give us all this stuff. But in this 
jurisdiction, Mr. Graves said, sirens and nothing--nothing we 
can say about layering is going to make rural areas do what is 
the optimum thing to do. So we need very tough choice-making 
district-by-district, area-by-area thinking unless you live 
in--you know, on the east side of Manhattan where, you know, 
there are a lot of rich people who want to know in every 
conceivable way if there is an alert.
    I am trying--I am trying to make you understand the 
atmosphere or the climate in which we work now and I think I 
can say without fear of contradiction where we would be working 
for many years to come.
    Oil prices and food prices only forecast that, if anything, 
we are threatened with some bottoming out of the standard of 
living of the United States continuing to just progress 
automatically. That being the case, somebody is going to have 
to sit down with FEMA from the local level and help guide FEMA; 
and then somebody is going to have to be real clear with their 
own people. I upgraded systems that consist of the EAS and not 
much more. Keep your radio on.
    I am very afraid that if we keep acting like we are going 
to fund an all-media system that we will have the opposite 
effect on people. They will think, well, they will get to me 
one way or the other.
    Your testimony has been very important, particularly--but 
what it has said to me is that these forums are more necessary 
than ever. Because if people have to make choices, then I don't 
know how they are going to make them if they are not all 
sitting around tables in their own locals with somebody telling 
me the honest-to-goodness truth. Mr. Gispert is going to say, 
look, in my area I can get to--y'all better be there, because 
we are going to make up for lots of other things simply by 
going wherever you are.
    And in New York they are going to say, after 9/11, every 
penny we have--I mean, 9/11 has re-created the homeland 
security apparatus of the United States of America.
    I always learn from these hearings, and they educate me 
profoundly. You certainly have done so. This has been 
remarkably useful testimony.
    I want to thank all three of you for coming and for bearing 
with us while we question the others and for taking our 
questions, which had been put forward to help educate us. Thank 
you very much.
    The hearing is adjourned.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 42774.009
    
    [GRAPHIC] [TIFF OMITTED] 42774.010
    
    [GRAPHIC] [TIFF OMITTED] 42774.011
    
    [GRAPHIC] [TIFF OMITTED] 42774.012
    
    [GRAPHIC] [TIFF OMITTED] 42774.013
    
    [GRAPHIC] [TIFF OMITTED] 42774.014
    
    [GRAPHIC] [TIFF OMITTED] 42774.015
    
    [GRAPHIC] [TIFF OMITTED] 42774.016
    
    [GRAPHIC] [TIFF OMITTED] 42774.017
    
    [GRAPHIC] [TIFF OMITTED] 42774.018
    
    [GRAPHIC] [TIFF OMITTED] 42774.019
    
    [GRAPHIC] [TIFF OMITTED] 42774.020
    
    [GRAPHIC] [TIFF OMITTED] 42774.021
    
    [GRAPHIC] [TIFF OMITTED] 42774.022
    
    [GRAPHIC] [TIFF OMITTED] 42774.023
    
    [GRAPHIC] [TIFF OMITTED] 42774.024
    
    [GRAPHIC] [TIFF OMITTED] 42774.025
    
    [GRAPHIC] [TIFF OMITTED] 42774.026
    
    [GRAPHIC] [TIFF OMITTED] 42774.027
    
    [GRAPHIC] [TIFF OMITTED] 42774.028
    
    [GRAPHIC] [TIFF OMITTED] 42774.029
    
    [GRAPHIC] [TIFF OMITTED] 42774.030
    
    [GRAPHIC] [TIFF OMITTED] 42774.031
    
    [GRAPHIC] [TIFF OMITTED] 42774.032
    
    [GRAPHIC] [TIFF OMITTED] 42774.033
    
    [GRAPHIC] [TIFF OMITTED] 42774.034
    
    [GRAPHIC] [TIFF OMITTED] 42774.035
    
    [GRAPHIC] [TIFF OMITTED] 42774.036
    
    [GRAPHIC] [TIFF OMITTED] 42774.037
    
    [GRAPHIC] [TIFF OMITTED] 42774.038
    
    [GRAPHIC] [TIFF OMITTED] 42774.039
    
    [GRAPHIC] [TIFF OMITTED] 42774.040
    
    [GRAPHIC] [TIFF OMITTED] 42774.041
    
    [GRAPHIC] [TIFF OMITTED] 42774.042
    
    [GRAPHIC] [TIFF OMITTED] 42774.043
    
    [GRAPHIC] [TIFF OMITTED] 42774.044
    
    [GRAPHIC] [TIFF OMITTED] 42774.045
    
    [GRAPHIC] [TIFF OMITTED] 42774.046
    
    [GRAPHIC] [TIFF OMITTED] 42774.047
    
    [GRAPHIC] [TIFF OMITTED] 42774.048
    
    [GRAPHIC] [TIFF OMITTED] 42774.049
    
    [GRAPHIC] [TIFF OMITTED] 42774.050
    
    [GRAPHIC] [TIFF OMITTED] 42774.051
    
    [GRAPHIC] [TIFF OMITTED] 42774.052
    
    [GRAPHIC] [TIFF OMITTED] 42774.053
    
    [GRAPHIC] [TIFF OMITTED] 42774.054
    
    [GRAPHIC] [TIFF OMITTED] 42774.055
    
    [GRAPHIC] [TIFF OMITTED] 42774.056
    
    [GRAPHIC] [TIFF OMITTED] 42774.057
    
    [GRAPHIC] [TIFF OMITTED] 42774.058
    
                                    

</pre></body></html>
